<html>
<title> - THE IMPACT OF WOMEN'S GROWING PARTICIPATION IN THE WORKFORCE: ``THE SHRIVER REPORT: A WOMEN'S NATION CHANGES EVERYTHING''</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                     THE IMPACT OF WOMEN'S GROWING
                    PARTICIPATION IN THE WORKFORCE:
                    ``THE SHRIVER REPORT: A WOMEN'S
                      NATION CHANGES EVERYTHING''

=======================================================================

                             FIELD HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN SAN RAFAEL, CA, NOVEMBER 13, 2009

                               __________

                           Serial No. 111-39

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html





                  U.S. GOVERNMENT PRINTING OFFICE
53-186 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Carol Shea-Porter, New Hampshire     Cathy McMorris Rodgers, 
Donald M. Payne, New Jersey              Washington,
Raul M. Grijalva, Arizona              Ranking Minority Member
Timothy H. Bishop, New York          Peter Hoekstra, Michigan
Phil Hare, Illinois                  Joe Wilson, South Carolina
Gregorio Kilili Camacho Sablan,      Tom Price, Georgia
  Northern Mariana Islands













                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 13, 2009................................     1

Statement of Members:
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Additional submission:
            Emily M. Murase, Ph.D., executive director; and Ann 
              Lehman, senior policy director, San Francisco 
              Department on the Status of Women, prepared 
              statement of.......................................    41

Statement of Witnesses:
    Blades, Joan, co-founder, MomsRising.........................    12
        Prepared statement of....................................    14
    Bornstein, Stephanie, associate director, the Center for 
      WorkLife Law...............................................    24
        Prepared statement of....................................    26
    Ferris, Maria, director, diversity, compliance & employee 
      experience, IBM Corp.......................................    16
        Prepared statement of....................................    17
    O'Leary, Ann M., executive director, the Berkeley Center on 
      Health, Economic & Family Security, University of 
      California Berkeley School of Law..........................     4
        Prepared statement of....................................     7
    Zamorano, Claudia............................................     9
        Prepared statement of....................................    11

 
                     THE IMPACT OF WOMEN'S GROWING
                    PARTICIPATION IN THE WORKFORCE:
                    ``THE SHRIVER REPORT: A WOMEN'S
                      NATION CHANGES EVERYTHING''

                              ----------                              


                       Friday, November 13, 2009

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:30 a.m., in 
the Board of Supervisors Chambers, Marin County Civic Center, 
3501 Civic Center Drive, San Rafael, California, Hon. Lynn 
Woolsey, presiding.
    Present: Representative Woolsey.
    Staff Present: Lynn Dondis, Labor Counsel, Subcommittee on 
Workforce Protections; James Schroll, Junior Legislative 
Associate; Rob Gregg, Minority Senior Legislative Assistant.
    Chairwoman Woolsey. With the Chair being present, this 
proceeding of the Workforce Protection Subcommittee will come 
to order.
    Without objection, all members will have 14 days to submit 
additional material for the record.
    A quorum is present--no, it is not. What am I supposed to 
say? [Laughter.]
    See, we do not have a real quorum. So we have to change our 
words slightly. So this is Lynn's job, and I am going to wait 
until she guides me through this because, you see, it is all 
taken down for the record. It is a formal proceeding.
    So with that, I will make my opening statement and then we 
will get into hearing our wonderful witnesses.
    So I want to thank everyone for coming here today to this 
hearing on the impact of women's growing participation in the 
workforce, a Women's Nation Changes Everything. Today if a 
child is fortunate enough to have two parents, most of them are 
in the workforce outside of the home, and they work long hours 
and commute long hours. And in a single parent home, it is 
almost certain that that parent is in the workforce.
    So balancing work and family is a very real challenge for 
millions of workers in this country, and it is extremely 
important to their children. I am delighted that the First Lady 
of California, Maria Shriver, along with the Center for 
American Progress, is fully engaged on this issue. The Shriver 
Report shines a bright light on the work-life balance dilemma 
and makes the point that even though women now comprise one-
half of the United States workforce, our policies to help 
working families are badly outdated.
    It finds and say that the typical family structure has 
changed, and in 2009 only one-fifth of families consist of a 
husband who works and a wife who stays home to care for their 
children, and that men as well as women are desperate for 
family friendly policies.
    For those of us who have always been in the workforce, the 
findings of the Shriver Report are music to our ears. Many 
years ago, many years ago, when my children were not parents 
themselves, I was working full time outside of the home. It was 
a struggle to meet both the needs of my family as well as 
responsibilities of my career.
    Early on I did not have sick leave and certainly not family 
and medical leave, but even when I could afford to take time 
off to care for a sick child, the pressure from the workplace 
was overwhelming. If I stayed home, I worried about my job. If 
I went to work, I worried about my child.
    Unfortunately, some 30 years later parents are still 
concerned about the same things. That is one of the main 
reasons I ran for Congress, as a matter of fact, over 16 years 
ago, to fight for working families.
    I was a new member when we passed the Family and Medical 
Leave Act, but I knew what an important step we were taking, 
particularly for working women. You see, I was a human 
resources professional. I got it. I got how hard this was for 
women in the workplace. It was so important that we provide job 
protected family medical leave for certain workers even though 
it was unpaid.
    Over the years we have learned that while more than 100 
million leaves have been taken under FMLA, nearly two-thirds of 
the workforce are not covered by the act, and even if they are, 
most workers cannot take advantage of its provisions because 
they cannot afford to take the time off.
    As the Shriver Report points out, we are now in the 21st 
Century. We did know that, didn't we? [Laughter.]
    And the world has changed, and workers should have not to 
choose between their jobs and their families. In short, we need 
a 21st Century solution.
    That is why I have introduced the Balancing Act, which lays 
out the role the federal government can play in helping to 
balance work and family. The bill encompasses the suggestions 
for reform in the Shriver Report and includes what families 
need to help them balance work and their personal lives.
    Title I of the Balancing Act is taken from Representative 
Stark's legislation and provides for up to 12 weeks of paid 
family leave in the case of birth or adoption, or to take care 
of oneself or a sick family member. Title I also provides leave 
for parental involvement and family wellness, and expands the 
FMLA to additionally cover those employees who work for 
employers with 15 or more employees, and it covers same sex 
partners. It allows workers time off to address the effect of 
domestic violence as well.
    Finally, Title I incorporates Representative Rosa Delauro 
from Connecticut Healthy Families Act, which provides up to 
seven paid sick leave days a year for each worker.
    Title II of the Balancing Act spans access to childcare.
    Title III strengthens preschool, in school and after school 
programs.
    And finally, Title IV encourages tele-work and provides for 
equitable treatment of part-time and temporary workers under 
pension plans and group health plans.
    In short, the Balancing Act is a blueprint for work-family 
balance. Insuring the passage of all of its provisions is my 
ultimate goal as a member of the House of Representatives.
    Today we will be hearing from an outstanding panel of 
witnesses. You guys are wonderful. Through the lens of the 
Shriver Report, they will testify about the obstacles working 
families, workers face in trying to balance work and family in 
today's world, and they will make the case that policies to 
help this balance are absolutely critical.
    The United States lags behind the rest of the world in 
providing family friendly benefits to employees. It is 
unacceptable that this country, which is the number one economy 
in the world, can barely compete with developing nations in 
this area.
    Again, thank you for coming and thank all of you for being 
here to listen, and we look forward to hearing from our 
witnesses.
    I would like to introduce our very distinguished panel of 
witnesses who have joined us this morning, and those of you who 
have not testified before us before, we have a lighting system 
that will tell you with an orange light. You have five minutes. 
We are not going to cut you off at exactly five minutes because 
we only have me. We do not have a whole set of members up here 
that want to take up a bunch of time. So we are going to let 
you have as much time as you need in this, but to get started, 
we would like you to present your paper with a time frame.
    At four minutes a yellow light will come on, and that will 
tell you you have one more minute before your five minutes, and 
start wrapping it up around then.
    And now I get to introduce you wonderful witnesses, and 
this will be the order. It is just going right down, starting 
over here with Ann O'Leary. Ann is the Executive Director of 
the Berkeley Center for Health, Economic and Family Security at 
the U.C. Berkeley School of Law, and is a Senior Fellow with 
the Center for American Progress.
    She was a co-editor of the Shriver Report and also wrote 
one of its chapters. Ms. O'Leary also worked in the Clinton 
administration and served as the legislator director for 
Senator Hillary Rodham Clinton.
    She received her Bachelor's degree from Mount Holyoke 
College, her Master's degree from Stanford University, and her 
law degree from Berkeley School of Law.
    Claudia Zamorano.
    Ms. Zamorano. Zamorano.
    Chairwoman Woolsey. The last name?
    Ms. Zamorano. Zamorano.
    Chairwoman Woolsey. Well, you know, you say it so 
beautifully. Zamorano. I am going to call you Claudia from now 
on. Is that all right?
    Ms. Zamorano. Yes.
    Chairwoman Woolsey. Is a resident of Nevada, California, 
and is a single mother of two children. She is taking courses 
in early childhood education at the College of Marin, and in 
2008 she graduated from the San Rafael Beauty Academy. She has 
worked as a nanny for 15 years, and her goal is to get her 
cosmetology license.
    Joan Blades is co-founder and president of MomsRising.org, 
a national grassroots organization of over one million members. 
She is also co-founder of MoveOn.org.
    Ms. Blades practiced law in Alaska and California, taught 
mediation at Golden Gate University, is also a published 
author. She received her BA from U.C. Berkeley in 1977 and her 
law degree from the Golden Gate University School of Law.
    Maria Ferris. Ms. Ferris is the Director of Diversity 
Compliance and Employee Experience at IBM. Maria is in charge 
of the company's global workforce diversity and work-life 
programs for staff worldwide and also manages its executive 
diversity task force.
    Maria holds a B.S. degree in business administration from 
Regis University.
    Stephanie Bornstein is an employment attorney and Associate 
Director of the Center for WorkLife Law. Previously she worked 
as a staff attorney at Equal Rights Advocates, ERA, a public 
interest law center focused on gender discrimination in 
employment and education.
    Ms. Bornstein received her Bachelor's degree from Harvard 
University and her law degree from U.C. Berkeley School of Law.
    Tell me. Do we have a better group of witnesses? No, we 
would not.
    So now let's get started. We will start with Ann O'Leary.

 STATEMENT OF ANN O'LEARY, EXECUTIVE DIRECTOR, BERKELEY CENTER 
FOR HEALTH, ECONOMICS AND FAMILY SECURITY, U.C. BERKELEY SCHOOL 
                             OF LAW

    Ms. O'Leary. Thank you so much, Chairwoman Woolsey, for 
hosting this hearing to highlight the findings of the Shriver 
Report.
    And for those who have not seen it, I brought a copy of the 
Shriver Report here.
    And also, thank you for your strong leadership over many 
years on the very issues highlighted in this report. It is an 
honor to be on the panel with all of the fine women who are on 
this panel who have worked so hard on these issues over the 
years.
    The Shriver Report, a Women's Nation Changes Everything, is 
centered around three key facts. For the first time in our 
history, women make up half of all workers in the United 
States. Mothers are now bread winners making as much or more 
than their spouse or doing it all on their own in nearly 40 
percent of families. If you add mothers who are co-bread 
winners, contributing at least a quarter of the family income, 
you find that two-thirds of mothers are either bread winners or 
co-bread winners.
    These two facts alone are a dramatic shift from the late 
1960s when women were only one-third of the workers in the 
United States and only 20 percent were bread winners or co-
bread winners. So really dramatic differences of what's 
happening today.
    The other key fact that you highlighted in your opening 
statement, Chairwoman Woolsey, is the difference in our family 
structure. In the 1970s, about half of families, around 45 
percent, were so-called traditional families. They were married 
couples with a man staying at home--I'm sorry. The woman 
staying at home. [Laughter.]
    Ms. O'Leary [continuing]. With the woman staying at home 
and the man going out into the workforce.
    But the other big difference is that in 1975, only nine 
percent of families were headed by a single parent. Today 22 
percent of families are headed by a single parent. So we really 
have a dramatically different family structure as well.
    So what do these key facts mean for our families, for our 
work force and our society as a whole? Quite simply, we believe 
that women as half of our workers changes everything. In the 
Shriver Report, top notch academic and policy experts from 
around the country examined the major institutions in our 
society, government, our health and education systems, 
business, faith based institutions, and the media, to analyze 
how these institutions have responded to these key changes in 
our society and where they have fallen short.
    Unfortunately, in each instance, the authors of the report 
find that our institutions have not adequately kept up with 
these changes. Today I would like to focus on how the 
government has responded to this new reality and what our 
government could do to lead the way in changing our workplace 
and family support policies.
    As women entered the workforce in droves, women fought hard 
to get equal access to the rights of men in the workplace, and 
they succeeded with the Equal Pay Act, Title VII of the Civil 
Rights Act prohibiting sex discrimination in the workplace, and 
the Pregnancy Discrimination Act of 1978. But it has become 
clear that merely gaining rights to a workplace where policies 
on hours, pay, benefits and leave time were designed around 
male bread winners who presumably had no family caregiving 
responsibilities and often had a spouse who stayed at home full 
time to manage the house and care for children when they were 
sick or aging relatives when they became frail; these policies 
do not fit today's workers. We simply cannot work in the same 
way as traditional bread winners once worked.
    Our report highlights the areas in which government has 
made progress, but has also fallen short in creating policies 
to reflect new realities. I just want to focus on three of 
those policies in my opening statement.
    The first is family leave. As we all know, a wonderful 
thing happened in 1993, thanks to many people in this room, 
which is that the Family and Medical Leave Act became law, 
guaranteeing unpaid leave for at least some workers regardless 
of gender to care for family or medical needs.
    While this has helped millions of American take the leave 
they need, half of all workers in the United States are not 
covered by this law. Furthermore, any leave granted under FMLA 
is unpaid, which means many workers cannot take advantage of it 
because they simply cannot afford it.
    In practice, law also favors in two-parent families that 
the parent who makes less money, still more often the woman, 
staying home. So too often we end up having gender stereotypes 
supported by this law.
    The United States is the only industrialized country 
without any government sponsored or employer required paid 
maternity leave, and we are one of only a handful with no paid 
parental leave for fathers.
    In terms of pregnancy and caregiving discrimination, the 
second point I would like to highlight, most Americans believe 
it is illegal today for employers to fire a pregnant worker as 
a result of the Pregnancy Discrimination Act of 1978. But this 
just is not the case. Unfortunately, there are many lawful 
reasons an employer in the United States can fire a pregnant 
worker, and these reasons often disproportionately harm low 
wage workers.
    A number of federal courts have interpreted the Pregnancy 
Discrimination Act to mean that employers that do not allow 
workers any leave or extremely limited leave to recover from an 
illness or disability are under no obligation to provide leave 
to pregnant workers.
    Courts have also been clear that a pregnant worker is told 
by her doctor that she should not lift heavy weights or needs 
to stay off her feet, that the Pregnancy Discrimination Act 
just cannot cover you. So we have gaps in the law we need to 
fill.
    In addition to that, in terms of our current economic 
situation what we are seeing is a rise in pregnancy claims are 
continuing to go up. So this is another area where we really 
need improvement. Stephanie Bornstein will talk about 
caregiving discrimination. So I will not spend time talking 
about that today, but another important area.
    Finally, what I would like to talk about is predictable and 
flexible workplace scheduled. The Fair Labor Standards Act 
requires premium pay for overtime hours worked, but it does not 
do enough to address flexible and predictable work schedules. 
The current law allows flexibility for compressed work weeks, 
but this flexibility is left at the discretion and in the sold 
control of the employer. Too many employees have to face 
mandatory overtime, and as our colleague from IBM will tell us, 
some employers also face the other issue of unauthorized 
overtime.
    It seems like the right time to begin conversations about 
how employers can have flexibility in the workplace, but we 
also have to look at the low wage workers who, frankly, need 
predictability. It is not fair to a person working in retail 
sales who just cannot manage to move on because every day their 
employer is changing their schedule. It is very difficult to 
have childcare opportunities in those situations.
    We also need to address child and elder care, and I know 
that is something that you do in your Balancing Act. Chairwoman 
Woolsey, you know better than anyone that these issues are not 
new, and we thank you for your leadership over many years on 
the Balancing Act and your recent introduction of the Family 
Income to Respond to Significant Transitions Act. It is time 
for government to act, and we are so glad you are leading the 
way.
    [The prepared statement of Ms. O'Leary follows:]

Prepared Statement of Ann M. O'Leary, Executive Director, the Berkeley 
Center on Health, Economic & Family Security, UC Berkeley School of Law

    Thank you, Chairwoman Woolsey, for hosting this hearing to 
highlight the findings of ``The Shriver Report'' and for your strong 
leadership over many years on the very issues highlighted in the 
report--the need for our society and our institutions to respond to the 
changing nature of the family and our workplaces as a result of women's 
growing participation in the workforce.
    I am Ann O'Leary, Executive Director of the Berkeley Center on 
Health, Economic & Family Security at UC Berkeley School of Law and a 
Senior Fellow with the Center for American Progress. Most importantly 
for this hearing, I am the co-editor of the Shriver Report, along with 
my colleague Heather Boushey, a senior economist at the Center for 
American Progress. I am also co-author, with Karen Kornbluh, a work-
family policy expert, of the chapter in the Shriver Report on the 
government's response to women's growing participation in the 
workforce, ``Family Friendly for All Families: Workers and caregivers 
need government policies that reflect today's realities.''
    ``The Shriver Report: A Woman's Nation Changes Everything'' is 
centered around three key facts:
    <bullet> For the first time in our history women make up half of 
all workers in the United States.
    <bullet> Mothers are now breadwinners--making as much or more than 
their spouse or doing it all on their own--in nearly 40 percent of 
families. If you add mothers who are co-breadwinners--contributing at 
least a quarter of the family income--you find that two-thirds of 
mothers are either breadwinners or co-breadwinners in their families.
    These two facts alone are a dramatic shift from the late 1960s when 
women were one third of the workers in the United States, and only 27 
percent were breadwinners or co-breadwinners in their families.
    <bullet> The final key fact is that not only has our workforce 
changed, but the make-up of our families is dramatically different than 
it was in the mid-1970s when women first began entering the workforce 
in larger numbers. In 1975, nearly 45 percent of families with children 
consisted of a male breadwinner and a female homemaker. Today, that 
number is just 21 percent or 1 in 5 families. In 1975, single parents 
made up only 9 percent of our families with children. Today, single 
parent households are 22 percent of our families with children. And, in 
1975, 31 percent of families were married dual-income families and 
today that number has jumped to 44 percent of our families.
    What do these facts mean for our families, for our workforce and 
for our society as a whole? Quite simply, women as half of all workers 
changes everything.
    In ``The Shriver Report'' top-notch academic and policy experts 
from around the country examine the major institutions in our society--
government, our health and education systems, business, faith-based 
institutions, and the media--to analyze how they have responded to 
these key changes in our society and where they have fallen short. In 
each instance, the authors of the report find that our institutions 
have not adequately kept up with these changes.
    Our government still relies on social policies built around the 
traditional family. So too does our health system with access to 
insurance often tied to good jobs, which are more likely to be held by 
men then women.
    Our education system is in many ways a success story with women 
outpacing or matching men's educational attainment at all levels of 
education. Still women remain concentrated in traditional female fields 
such as health and education and are falling behind in entering the 
higher-paying fields of the future, including science, mathematics, 
engineering and technology.
    In business, women are half of all U.S. workers and this year women 
were running more than 10 million small businesses with combined sales 
of $1.1 trillion. Yet, in our major corporations we still have paltry 
numbers of women in leadership and too few women overall who have 
access to the type of supports that would allow them to reach the top--
flexible hours, career development, and inclusive work environments.
    Too many of our faith-based institutions, which for decades relied 
on the volunteer work of women to keep them running, haven't adapted to 
women's new work schedules and demands. And many faith-based 
institutions have struggled to include women as valued leaders.
    The mainstream media outlets often suggest that women have ``made 
it,'' portraying women as successful executives at the top of every 
profession. Yet rarely do we see the face of the millions of everyday 
women who struggle to make ends meet to juggle work and family.
    What affect does the failure of our major institutions to respond 
to this new reality have on workers and families? It means individuals 
and families must face these problems as their own personal struggles. 
These ``personal'' struggles, however, have a negative impact on the 
health and well-being of our families and often cause economic 
detriment--from lost income to lost jobs--that has a lasting impact not 
only on our families, but our economy as a whole.
    Today, I'd like to focus on how the government has responded to 
this new reality and what our government could do to lead the way in 
changing our workplace and family support policies.
    As women entered the workforce in droves, women fought hard to get 
equal access to the rights of men in the workplace. And they 
succeeded--with the Equal Pay Act, Title VII of the Civil Rights Act, 
and the Pregnancy Discrimination Act. But it has become clear that 
merely gaining rights to a workplace where policies on hours, pay, 
benefits, and leave time were designed around male breadwinners who 
presumably had no family caregiving responsibilities and often had a 
spouse who stayed home full-time to manage the house and care for 
children, as well as sick and aging relatives, isn't enough for today's 
workers. Too many workers--especially women and low-wage workers--
simply cannot work in the way traditional breadwinners once worked with 
a steady job and lifelong marriage with a wife at home.
    Our report highlights the areas in which government has made 
progress and has fallen short in creating policies to reflect families' 
new realities:
    Family Leave. In 1993, the Family and Medical Leave Act became law 
guaranteeing unpaid leave for at least some workers, regardless of 
gender, to care for family or medical needs. FMLA provides qualified 
employees with the right to take up to twelve weeks each year of job-
protected unpaid leave for the birth or care of the employee's child, 
care of an immediate family member with a serious health condition, or 
for an employee's own serious health condition.
    While this Act has helped millions of Americans take the leave they 
need, half of all workers in the United States are not covered by this 
law. Futhermore, any leave granted under FMLA is unpaid, which means 
many workers cannot take advantage of it because they cannot afford the 
loss of family income. In practice, the law favors families with one 
parent who makes less money (still more often the woman) providing care 
while the other higher-paid parent continues to support the family at 
work.
    The United States is the only industrialized country without 
government-sponsored or employer-required paid maternity leave and we 
are one of only a handful with no paid parental leave for fathers.
    Pregnancy and Caregiver Discrimination. Most Americans believe it 
is illegal today for employers to fire a pregnant worker as a result of 
the Pregnancy Discrimination Act of 1978. But that is just not the 
case. Unfortunately, there are many lawful reasons an employer in the 
United States can fire a pregnant worker and these reasons often 
disproportionately harm lower-wage workers.
    A number of federal courts have interpreted the Pregnancy 
Discrimination Act to mean that employers that do not allow workers any 
leave or extremely limited leave to recover from an illness or a 
disability are under no obligation to provide leave to pregnant 
workers. Courts have also been clear that if a pregnant worker is told 
by her doctor that she should not lift heavy weights or needs to stay 
off her feet in order to avoid negative health consequences for herself 
or her baby, then the Pregnancy Discrimination Act does not require her 
employer to accommodate these restrictions. Instead, the employer can 
legally fire the pregnant worker.
    Finally, women who are pregnant or on maternity leave certainly 
have no greater right to keep their jobs when lay-offs occur, although 
if they are targeted because they are pregnant or on maternity leave 
that is unlawful. In recent recessions, claims of pregnancy 
discrimination have consistently gone up, meaning women are filing 
claims at a greater rate suggesting that they are being fired because 
they are pregnant. These women aren't just imagining discrimination--
the percentage of these cases to be found to have merit remains at 
approximately 50 percent during highs and lows--so more women are found 
to have valid pregnancy discrimination claims in recessions than at 
other times.
    My colleague, Stephanie Bornstein of the Center for WorkLife Law, 
will be testifying about cargiving discrimination. The Center for 
WorkLife Law, led by Joan Williams, has improved the use of Title VII 
for combating such discrimination. But Title VII and the Pregnancy 
Discrimination Act only require access to equal terms and benefits of 
all workers, which often is not enough to aid workers with caregiving 
responsibilities.
    Predictable and Flexible Workplace Schedules. The Fair Labor 
Standards Act requires premium pay for overtime hours worked above the 
40-hour workweek, but it does not address flexible, predictable work 
schedules. The law currently allows for flexibility within the context 
of a 40-hour workweek, such as a compressed workweek or daily schedules 
with differing work hours, but this flexibility is left at the 
discretion and is in the sole control of the employer. The result is a 
majority of workers have no ability to control the time that they start 
and end their work days, no ability to work from a different location, 
and no ability to reduce the hours they work.
    There are no federal laws in place requiring or incentivizing 
employers to offer predictable work schedules. Low-wage workers, often 
working in retail, find predictability even more challenging than 
flexibility. When your employer changes your schedule from day to day 
or week to week, it makes it almost impossible to organize consistent, 
quality child care or elder care for your relatives.
    Social Insurance. Our social insurance system was developed around 
the notion that couples are married for life and that the man earns the 
family income and the wife takes care of the children and ill or aging 
relatives. Take Social Security retirement benefits for example. Social 
security provides benefits directly to workers and to dependent 
spouses. For many women, this provision has been a lifesaver--the 
difference between poverty and stability in the retirement years. But 
too many women today cannot take full advantage of these benefits--
because of years taken away from the workforce to raise children or 
care for ailing parents, they don't earn enough to have their own solid 
social security retirement and they don't qualify for spousal benefits 
either because they were never married or they divorced before 10 
years.
    Child and Elder Care. In the 1970s, Congress passed a universal 
child care bill, which was vetoed by President Nixon. Today's patchwork 
of government child care programs provide too little support to meet 
the needs of today's working families and our aid to families with 
elder caregiving needs is almost nonexistent.
    Chairwoman Woolsey, you know better than anyone that these issues 
are not new. For years, you have been a leader in Congress, year after 
year introducing and pushing for ``The Balancing Act,'' which provides 
comprehensive solutions for families trying to meet the dual demands of 
work and family. This year, you have led the way to push for solutions 
to the need for paid family leave by introducing the Family Income to 
Respond to Significant Transitions (FIRST) Act.
    What is new is our changed reality--women are in the workforce to 
stay and families must rely on the income of working mothers. The other 
thing that is new is that the desire to see our government and our 
businesses lead the way in changing our workplace policies is not 
coming from women alone. In a poll conducted as part of the Shriver 
Report, we found that both men and women overwhelmingly believe that 
government and business need to provide more flexibility in work 
schedules, paid family leave, and increased child care support.
    Further inaction on the part of the government will have real 
negative economic consequences for our families. Men and women both 
need the leadership of our government to solve these problems.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much, Ann, and it 
appears we do not have a yellow light.
    Ms. O'Leary. I apologize. I went over.
    Chairwoman Woolsey. No, you did fine.
    Because I do not know how long she will be able to stay 
here, I would like to point out that Supervisor Susan Adams 
came to see us.
    Thank you, Susan, for being here.
    And now we will hear from Claudia Zamorano.

                 STATEMENT OF CLAUDIA ZAMORANO

    Ms. Zamorano. Thank you. Thank you all for being here.
    Hello, everyone. Thank you for showing up. I really 
appreciate it.
    My name is Claudia Zamorano. I am the mother of two 
beautiful children, Alicia Daniela, 11 years old, and my son 
Alexander, four years old.
    I never in my life did expect to be standing here before 
you telling you my story. Just two years ago I had a family, a 
home, a business, the so-called American dream. Now I stand 
here empty handed. I lost it all in a divorce.
    I did not understand how hard people really had it until I 
got to leave it. I am a woman that does not like to just sit 
around. So I involve myself in cosmetology school and finish, 
but I have not been able to continue with what I started and 
what I studied so hard for, my training and to get my license 
for state board.
    I went to school to get us out of this, out of where we are 
today, but to succeed I will have to be away from my children 
40 hours a week just to build clientele, and I cannot afford 
the cost of childcare while doing it. So right now I can only 
work part time as a nanny to make ends meet, and it is a 
struggle every day.
    That is the irony of all. I work to support another family 
so they can have work-life balance, but I do not have the same 
opinion for myself or option for myself.
    Since last January I have been on a waiting list to seek 
childcare assistance. How long must I wait? If I had childcare 
I could work more. I could pay more taxes. The money that I 
made we will spend in bills and groceries, rent, and all things 
that will help my local economy, and my son will be in an 
environment where he can develop and be with qualified 
caregivers who will give him the necessities when I am not 
around.
    I have been very lucky to have my parents help me with my 
children when I am not around, but it is getting harder and 
harder because I know they are getting older, and they also 
have their own health problems, and the money that I provide 
them is not enough.
    I wake up every morning not knowing if my parents will be 
able to take care of my kids or where should I leave my kids 
with just for me to go out there to make more money to survive. 
The stress has made it very difficult for me emotionally, 
mentally and physically. I have somehow managed to put together 
a fragile puzzle to take care of my kids, and it is just that, 
a puzzle. It could fall apart at any moment.
    I ask this committee to consider policies that will support 
working mothers like me. We need quality, affordable childcare. 
So please increase federal childcare funding.
    We need health care. I have gone without health care 
insurance for two years. If I had a major illness, I do not 
know what I will do. Thankfully, my employer now gives me sick 
days, but I have worked in many jobs where I did not have them.
    With all of the concern about the swine flu, working 
mothers need to be able to take time off to care for their 
children if they get sick or their school closes. We also need 
flexible work schedules. If my son is sick and my father cannot 
pick him up, I have to get him. My employer has been very 
flexible in the past, but I am afraid that if I keep asking 
that I could risk losing my job.
    Please do not take me wrong. I am not asking for a freebie. 
I am asking that childcare and health care be affordable for 
all. I want to feel my kids are safe and that I am able to work 
towards my career goal like everyone else.
    I am very proud of my daughter. Last week my daughter was 
chosen from her school as one of the 15 out of 600 students as 
achieving excellent grades. I want my children to be somebody. 
I want them to leave a mark in this country, what is now my 
country that I love and respect.
    I do not like the fact that my kids have seen this 
struggle; I really dislike it. And I stand here on behalf of 
those working mothers that now struggle and for the more like 
me to come; for all of those mothers who put their kids to bed 
and then stay up hours stressed, nervous, scared about what 
they will do to keep their children and give them a better 
live.
    We all need a peace of mind. One thing is for sure. I am 
not a leach. I am not a parasite. I am Claudia Zamorano, a 
woman, a warrior, but first of all a mother.
    Thank you. [Applause.]
    [The prepared statement of Ms. Zamorano follows:]

                 Prepared Statement of Claudia Zamorano

    My name is Claudia Zamorano. I am the mother of two beautiful 
children, Alicia Daniela, age 11 and Alexander, age 4. Never in my life 
did I expect to be standing before you telling you my story. Just two 
years ago I had a family, a home, a business--the so-called American 
Dream but since then it has taken a 180 degree turn. Now I stand here 
empty handed because I lost it all in a divorce.
    I did not understand how hard people really had it until I had to 
live it. I am not a woman that likes to just sit around, so I enrolled 
myself in cosmetology school and completed it. However, I have not been 
able to continue with my training and apply for the state board license 
because I spent my savings on my schooling and now I struggle to pay 
for the license and finish what I studied so hard for. I went to school 
to get us out of where we are today. But in order to succeed I would 
have to be away from my children 40 hours a week to build a clientele 
and I cannot afford the cost of childcare while doing it! So right now 
I can only work part time as a nanny to make ends meet--and it is a 
struggle everyday. That is the irony of it all. I work to support 
another family so they can have work/life balance, but I do not have 
that same option for myself. Since last January I have been on a list 
waiting to receive child care assistance. How long must I wait? If I 
had child care I could work more and I could pay more taxes. The money 
I made I would spend on bills, groceries, rent, which are all things 
that help my local economy. And my son would be in an environment where 
he can develop and be with qualified caregivers who would give him the 
necessities when I cannot be there.
    I have been very lucky to have my parents help with my kids while I 
work, but it is getting harder and harder because I know they are 
getting older, they have their own health problems, and the money I 
provide to them is not enough. I wake up every morning not knowing if 
my parents will be able to take care of my kids or who I will be able 
to leave them with in order to make money to survive. The stress has 
made it very difficult for me, emotionally, mentally, and physically. I 
have somehow managed to put together a fragile puzzle to take care of 
my kids, but that's just it, it could fall a part at any moment.
    I do not have the option to stay home and care for my kids. My ex-
husband works off and on, especially in this bad economy so he gives us 
support when he can, but it is not reliable. I cannot count on him for 
support so I must work. I'm here today to ask this Committee to 
consider policies that support working mothers like me. We need quality 
affordable child care so please increase federal child care funding. We 
need health care. I have gone without health care insurance for 2 
years. If I have a major illness I don't know what I would do. And we 
need paid sick days! Thankfully my employer now gives me sick days, but 
I've worked many jobs when I didn't have them. With all this talk about 
swine flu, working mothers need to be able to take time off to care for 
our children if they get sick or if their school closes. We also need 
flexible work schedules. If my son is sick and my father can't pick him 
up, I have to get him. My employer has been flexible in the past but 
I'm afraid that if I keep asking then I could risk losing my job.
    Please don't take me wrong--I am not asking for a freebie. I am 
asking that child care and health care be affordable for all! I want to 
feel my kids are safe and I am able to work towards my career goals 
like everyone else. I'm very proud of my daughter because last week she 
was chosen from her School as one of 15 out of 600 students for 
achieving excellent grades. I want my children to be somebody and leave 
a mark in this country, what is now my country that I love and respect. 
But I dislike the fact that my kids see me struggle. And I stand here 
on behalf of all those working mothers that now struggle and for the 
more like me to come. For all those mothers who put their kids to bed 
and then stay up hours stressed, nervous, scared about what they will 
do to give their children a better life. We all need peace of mind. One 
thing is for sure, I am not a leech! I am not a parasite! I am Claudia 
Zamorano! A woman, a warrior, but first of all a mother!
    Thank you for allowing me to speak today.
                                 ______
                                 
    Chairwoman Woolsey. And believe me, you are all of that and 
more.
    Joan Blades.

        STATEMENT OF JOAN BLADES, CO-FOUNDER, MOMSRISING

    Ms. Blades. It is an honor to be here. It is an honor to be 
with you, Chairwoman, and to be here with everyone on this 
panel.
    I am a co-founder of MomsRising, an online grassroots 
organization that works to promote and advocate for family 
friendly policies. Our membership is open to everyone who is a 
mom and everyone who has a mom. MomsRising addresses issues 
that are critically important to a wide cross-section of our 
nation. Eighty-two, point, eight million women in the United 
States have children, and we all have or had mothers.
    MomsRising has more than a million members across the 
United States, and our rapid growth speaks to the fact that we 
have touched a nerve. As you found and the Shriver Report 
points out, Americans, both men and women, are struggling to 
balance work and family and the vast majority want to see 
policy makers put laws in place that will let them fulfill 
their responsibilities at work without giving short shrift to 
their families, and we really appreciate the Balancing Act.
    Ann O'Leary and others are doing a lot of the data. So I am 
going to try and put a little more face on this issue. One of 
our favorite, early MomsRising members is Kiki Peppard who 
moved from Washington, no, from New York to Pennsylvania 
because she could not afford to raise her two kids on her own 
in New York and found in Pennsylvania it would be more 
affordable. And she did that with confidence because she had a 
great resume and great references, and she went out looking for 
a job, and as she went to employer after employer, they kept on 
asking, ``And do you have children?''
    And when they heard that, all of a sudden they were not 
interested in hiring her. She could not get a job despite 
having a great resume and great references.
    Now, there is data that shows us that mothers are 79 
percent less likely to be offered a job, and I am not talking 
about a single mother. When they found out she was single and 
had children, it was impossible for her to get a job, and there 
is a reason for that, and that is why we so desperately need 
these structures.
    We were talking about how other countries have paid family 
leave, and we don't measure up to industrialized countries. We 
don't measure up to the world. Out of 173 countries worldwide, 
there are four that have no paid leave for new mothers. That is 
Papua New Guinea, Swaziland, Liberia, and the United States of 
America.
    Chairwoman Woolsey. Would you repeat that again?
    Ms. Blades. Papua New Guinea, Swaziland, Liberia and the 
United States of America have no paid leave for new mothers. 
That is Sesame Street. One of these countries is not like the 
others. [Laughter.]
    We have to do better. It is crazy. The decisions parents 
are making, shall I take care of my new baby or shall I feed my 
family, it is not a question anyone in this country should have 
to ask.
    But more to say. In fact, we lack many family friendly 
programs that citizens of most industrialized countries take as 
given, programs like universal health care coverage, paid 
family leave, and a minimum number of paid sick days. Of the 20 
most competitive economies in the world, the U.S. is the only 
one that does not require businesses to provide paid sick days.
    Now, work-family balance is not just a problem for the 
families who are well off. It is a problem for all women who 
work, and in many cases it hits low income workers the hardest. 
Over 40 percent of children under six years old live in low 
income families, in poor families, and having a baby is the top 
cause of a poverty spell in this country. It is a time when 
families' incomes drop below the needs for basic living 
expenses.
    And the lack of after school care and flexible work options 
are two of the main reasons that 20 percent of school age 
children are home alone each day after school. Family friendly 
programs are critical, and they are core of MomsRising's 
agenda, which is spelled out in the word ``mother.'' M for 
maternity and paternity leave, O for open, flexible work, T for 
toxics and other health issues, H for health care, E for 
excellent child care, R for realistic and fair wages. S we 
tacked on recently for sick days because that is clearly part 
of the equation.
    If we want to say we have family values, then we have to 
also value families by passing the kind of policies that have 
long been championed by groups like the National Partnership 
for Women and Families, National Women's Law Centers, 
Children's Defense Fund, Families USA, 9to5, and you know, 
MomsRising has over 80 aligned organizations and partners.
    We need the Balancing Act. We need healthy families. We 
need to reauthorize the state CHIP and Child Care Development 
Block Grants. We need to keep all of those things current and 
improve them.
    As a nation, we are competing in a global economy which all 
of the other top economies are investing in their children and 
families while we lag behind. Children quite literally are the 
economic engine of our future, and study after study shows that 
investing in children and family policy now saves funds later 
because of less reliance on government entitlement programs, 
less severe illness, lower infant mortality, fewer grade 
repetitions, less interaction with the criminal justice system, 
and a list of areas where costs are saved goes on. It is 
horribly shortsighted to ignore these pressing national issues.
    MomsRising actively and regularly engages members to 
support family friendly policies. We are asking Congress to 
make sure they take care of children and families as they craft 
health care legislation, and when the CDC hoping to avert the 
spread of H1N1 advised people to stay home from work if they 
felt ill, MomsRising members reminded their elected leaders 
that almost half of the non-governmental workers in the U.S. 
have no paid sick days.
    There are millions of people in this country that cannot 
afford to lose a day's wages, and in fact, some risk losing 
their jobs if they stay home sick. Our members remind leaders 
that not only do workers need paid sick days for themselves. 
They need it so they can take care of their families. Parents 
need to be able to stay home and care of sick children. Paid 
sick days are good for the whole community.
    Just this week MomsRising member Desiree Rosondo testified 
before the U.S. Senate. She told them families like hers need 
paid sick days. She told them that difficulty of choosing to 
stay home with a sick child when it undermines her family's 
economic security.
    We do much more than generate E-mail letters. MomsRising 
members have delivered petitions, cookies, apples with messages 
to elected leaders across the country. They have held hundreds 
of house parties to discuss the issues they care about and 
screen the Motherhood Manifesto. Our offices are overflowing 
with thousands of decorated baby ONEsies that our members have 
sent to show support for family friendly policies.
    And then we spring up in appropriate situations to help 
pass things like paid family leave. It passed in New Jersey 
last year. It passed in Washington State the year before. 
California, I am proud to say, is the first state to have paid 
leave for new parents.
    We will continue to work with our members who are in every 
state to support federal legislation like the Healthy Families 
Act and Balancing Act, as well as to support state legislation 
that makes workplaces more family friendly and speak out and 
take action on issues that matter most to families because when 
this many people are having the same problems at the same time, 
we have a national structural issue that needs to be addressed, 
and it is not an epidemic of personal failings.
    It is time to make the changes, and thank you very much for 
having us here. [Applause.]
    [The prepared statement of Ms. Blades follows:]

       Prepared Statement of Joan Blades, Co-founder, MomsRising

    Madam Chairwoman and Members of the Committee: I am Joan Blades and 
I am the co-founder of MomsRising.org, a fast-growing online grassroots 
organization that works to promote and advocate for family-friendly 
policies. Our membership is open to everyone who is a mom, and everyone 
who has a mom. MomsRising addresses issues that are critically 
important to wide cross-section of our nation: 82.8 million women in 
the United States have children and we all have mothers.
    MomsRising has more than one million members across the United 
States. Our rapid growth speaks to the fact that we have touched a 
nerve. As we have found, and the Shriver Report points out, Americans--
both women and men--are struggling to balance work and family, and the 
vast majority want to see policy makers put laws in place that will let 
them fulfill their responsibilities at work without giving short shrift 
to their families.
    Why are these issues pressing right now? Our nation has changed 
over the past several decades, but our country's work/family policies 
are stuck with a 1950s support structure. Currently, women make up one-
half of the workforce, and women's wages are increasingly important to 
the support of their families. Nearly 40% of mothers are the primary 
breadwinners for their families, and an additional 25 percent bring 
home at least 25% of a family's total earnings. Yet women make 77 cents 
to a man's dollar, and mothers fare even worse.
    Countries with family-friendly policies and programs in place--like 
paid family leave and subsidized child care--don't have wage gaps as 
wide as we do here. And we are, frankly, behind the rest of the world 
when it comes to family-friendly policies.
    For example, of the 173 countries that were the subject of a study 
of international workplace policies by Dr. Jody Heymann of Harvard and 
McGill Universities, there were only four countries that didn't provide 
some form of paid family leave for new mothers. The four countries that 
did not--and do not--have some form of paid leave for new mothers are 
Papua New Guinea, Swaziland, Liberia and the United States.
    In fact, we lack many family-friendly programs that citizens of 
most other industrialized countries take as a given. Programs like 
universal health care coverage, paid family leave, and a minimum number 
of paid sick days. Of the 20 most competitive economies in the world, 
the U.S. is the only one that does not require businesses to provide 
paid sick days.
    Now, work family balance is not just a problem for families who are 
well off. It is a problem for all women who work, and in many cases 
hits low-income workers the hardest. Over 40 percent of children under 
six years old live in low-income and poor families; and having a baby 
is a top cause of ``poverty spells'' in this country--a time when a 
family's income dips below what it needs for basic living expenses like 
food and rent. And the lack of afterschool care and flexible work 
options are two of the main reasons that 26 percent of school aged 
children are home alone each day after school.
    Family-friendly programs are critical and are at the core of 
MomsRising's agenda which is spelled out in the word ``mother.'' M for 
Maternity and Paternity Leave; O for Open Flexible Work; T for 
Television and other Afterschool Programs; H for Healthcare; E for 
Excellent Childcare; R for Realistic and Fair Wages.
    If we want to say we have family values; then we have to also value 
families by passing the kinds of policies that have long been 
championed by groups like the National Partnership for Women and 
Families, the National Women's Law Center, the Children's Defense Fund, 
FamiliesUSA, and 9to5, five of MomsRising's more than 80 aligned 
organizational partners. Policies like the Healthy Families Act, and 
the Balancing Act, as well as fully funding and reauthorizing the State 
Children's Health Insurance Program (SCHIP); and the Child Care and 
Development Block Grant.
    We, as a nation, are competing in a global economy in which all the 
other top economies are investing in their children and families while 
we lag behind. Children, quite literally, are the economic engine of 
our future; and study after study shows that investing in children and 
family policies now, saves funds later because of less reliance on 
government entitlement programs, less severe illnesses, lower infant 
mortality, fewer grade repetitions, less interaction with the criminal 
justice system, and the list of areas where costs are saved goes on. It 
is horribly short-sighted to ignore these pressing national issues.
    MomsRising actively and regularly engages members to support 
family-friendly policies. MomsRising members have shared their health 
care stories with Congress asking that they make sure to take care of 
children and families as they craft health care legislation. And when 
the CDC hoping to avert the spread of H1N1 advised people to stay home 
from work if they felt ill MomsRising members reminded their elected 
leaders that almost half of the non-govermental workers in the U.S. 
have no paid sick days. There are millions of people in this country 
that cannot afford to lose a day's wages, and in fact some risk losing 
their job if they stay home sick. They reminded leaders that not only 
do workers need paid sick days for themselves, they need it so that 
they can take care of their families. Parents need to be able to stay 
home and care for sick children. Paid sick days are good for our whole 
community
    We do much more than generate emailed letters. MomsRising members 
have held hundreds of house parties across the country to discuss the 
issues they care about and to screen The Motherhood Manifesto film 
which delves into the MOTHER agenda. Our offices are overflowing with 
thousands of decorated baby ONEsies that our members have sent us as a 
show of support for family-friendly policies--and we're getting ready 
to exhibit those ONEsies at forums around the country. MomsRising was 
instrumental in getting paid family leave passed in Washington State--
making it only the second state to have paid leave, after California 
and New Jersey, the third state to pass paid leave. We will continue to 
work to get similar laws passed in other states and hope that some day 
soon federal legislation will follow.
    We'll continue to work with our members who are in every state, to 
support federal legislation like the Healthy Families Act and the 
Balancing Act, as well as to support state legislation that makes 
workplaces more family-friendly, and to speak out and take action on 
the issues that matter most to families--because when this many people 
are having the same problems at the same time, we have a national 
structural issue that needs to be addressed, and not an epidemic of 
personal failings. It's time to make those changes.
    Thank you.
                                 ______
                                 
    Chairwoman Woolsey. I probably should have said a little 
bit more about the employee practices at IBM when I was 
introducing Ms. Ferris, but we are really honored to have you 
here and to show us that some employers and employers of size 
have set an example and are good models, and we look forward to 
hearing from you.

 STATEMENT OF MARIA S. FERRIS, DIRECTOR, DIVERSITY, COMPLIANCE 
               AND EMPLOYEE EXPERIENCE, IBM CORP.

    Ms. Ferris. Thank you, and good morning, Chairwoman Woolsey 
and members of the Committee.
    My name is Maria Ferris, and I am the Director of 
Diversity, Compliance and Employee Experience at the IBM 
Corporation. I am pleased to appear before you to discuss a 
subject that is both important to me and also the focus of my 
job.
    But I am also here to explain challenges to our ability to 
offer that flexibility due to the lack of clarity and outdated 
nature of certain Fair Labor Standards Act for FLSA revisions. 
IBM employees are more than 400,000 people in 75 countries and 
approximately 25 percent work in the United States. Our U.S. 
workforce is very diverse. Thirty percent are women. Twenty-
five percent are minorities, and 54 percent are responsible for 
either children or elderly dependents. Fifty-one percent of our 
U.S. workforce works outside of a traditional office, and I am 
a case in point.
    I have worked from my home for the past 11 years, and was 
promoted to an executive while doing so.
    We believe that work is something one does, not a place 
that one goes, and we know the balance of work and family 
responsibilities is challenging under traditional work 
schedules.
    We also know that there are tens of thousands of talented 
individuals who without flexibility would not be a part of the 
labor market, and at the same time our customers want 
commitments met at any place and at any time. That is why it 
makes good business sense for us to provide, when possible, a 
supporting and flexible work environment.
    IBM has a rich history of implementing diversity and 
flexibility programs long before government mandates were even 
contemplated. Thirty years before the Equal Pay Act, IBM 
recruited professional women and promised equal pay for equal 
work, and 30 years before FMLA IBM initiated a three-month 
leave of absence program, alter extended to three years, making 
it one of the most generous policies in the nation.
    We pioneered dependent care assistance, investing more than 
$200 million since 1983 in creating services that both identify 
and refer employees to local licensed resources for child and 
elder care. In fact, the infrastructure that we created is now 
used by more than 15.6 million employees and people in the 
United States.
    But enabling and promoting flexibility is not without its 
challenges. We are forced to limit flexible arrangements for 
non-exempt workers because of outdated and unclear provisions 
within the FLSA.
    Technology is enabling us to work from anywhere at any time 
we choose. For many people the lines between what is and is not 
work are blurred, however current law limits and non-
exemptability to manage his or her time in the way that makes 
the most sense both personally and professionally. Burdensome 
rules restrict non-exemptability to work from home or to take a 
few hours off to see their child's school play.
    Chairwoman Woolsey. Maria, could you yield for just a 
minute? Would you clarify what a non-exempt employees is?
    Ms. Ferris. Yes. The non-exempt employee would be an 
employee who is paid for overtime.
    So burdensome rules restrict a non-exempt's ability to work 
from home, to take a few hours off to see their child's school 
play or visit elderly parents in a nursing home during the day.
    Moreover, the FLSA's treatment of non-exempt computer 
professionals and inside sales people is especially limiting, 
and it is, indeed, personally demeaning to many of these 
professionals who are highly educated and perform highly 
skilled work.
    For example, it could necessitate that they not be allowed 
to access job related technology, such as a PDA or a laptop 
outside of the company office or the official work day, and for 
non-exempts inside sales employees, earning potential may 
actually be less than their exempt counterparts.
    Companies wanting to implement workplace and work time 
flexibility are also constrained by the risk of legal 
liability. The FLSA lacks clarity on the de minimis use of 
technology and on unauthorized overtime. Clear statutory 
language is needed to define de minimis technology use and how 
it impacts working hours. In addition, employers cannot afford 
especially in today's business environment to pay for 
unauthorized overtime. Unfortunately, current law deems 
otherwise.
    In conclusion, new technology and globalization has 
reshaped our economy and our way of life. How work gets done 
and where work gets done is very different now, and for 
American women to maintain the gains that we have made and to 
insure the flexibility that accommodates work-life balance, we 
need to adjust the way of thinking about work and make 
legislative changes to keep labor law relevant today.
    Thank you for the opportunity to testify, and I look 
forward to answering any questions.
    [The prepared statement of Ms. Ferris follows:]

        Prepared Statement of Maria Ferris, Director, Diversity,
              Compliance & Employee Experience, IBM Corp.

    Good morning, Chairwoman Woolsey and Members of the Subcommittee. 
My name is Maria Ferris, and I am Director of Diversity, Compliance and 
Employee Experience at the IBM Corporation. In this role, I have 
overall responsibility for IBM's Global Workforce Diversity, Equal 
Opportunity and Work/Life Programs.
    I am a current member and former co-chair of the Conference Board's 
Work-Life Leadership Council and was a founding member of the 
Leadership Forum for Women's Advancement. I also have held board 
positions at the Institute for Women's Policy Research (IWPR), 
Corporate Voices for Working Families and the Alliance for Work/Life 
Progress (AWLP).
    I am pleased to appear before this Committee to discuss a subject 
that is near and dear to my heart, as well as the focus of my job at 
IBM, workforce flexibility and the needs of working women. I also am 
here to bring to the Committee's attention several policy issues that 
restrict our ability to provide to a segment of our population work 
place and work time flexibility, along with access to technology 
outside the workplace. These issues are the consequence of certain 
unclear and outdated Fair Labor Standards Act (FLSA) provisions. I will 
outline these issues and provide our recommended solutions, and it is 
our hope that the Committee will see fit to review these topics during 
this Congress.
    Let me say from the outset that the IBM Corporation is committed to 
creating a supportive and flexible work environment. Giving employees 
more flexibility and control over their work is an important means to 
achieve greater work/life balance and enhanced productivity. This is 
done in the context of a pay-for-performance environment, in which our 
focus is, first and foremost, on achieving results. As I will repeat 
later, we believe that work is something one does--not a place one 
goes.
    Employees have told us that balancing their work, family and 
education responsibilities, along with other commitments, is becoming 
increasingly challenging under traditional work schedules. For many 
IBMers, their ability to address work and family is a critical factor 
in their decision to stay with IBM. At the same time, customers need us 
to meet commitments, any place, at any time. Responding to these needs 
is nothing new for IBM, and we have made it a priority to create and 
implement programs that address the needs of both the individual and 
the company.
IBM Demographics
    The IBM Corporation employs more than 400,000 individuals in 75 
countries and does business in 175 countries around the world. 
Employees in the U.S. make up around 25% of our company--numbering 
approximately 105,000.
    Our workforce in the U.S. is diverse:
    <bullet> 30% are women; 25% are minorities.
    <bullet> 39% of our population is over age 50; 6% under 30.
    <bullet> 83% are either married or in a committed relationship.
    <bullet> 61% are dual earners; 22% are part of one-earner 
households.
    <bullet> 54% have responsibilities for dependent care (either 
children or elders).
    <bullet> 34% have responsibilities for elders--statistics which 
have more than tripled since 1986.
    <bullet> 10% tells us they are part of the sandwich generation--
having responsibility for both children and elders.
    IBM is a globally integrated enterprise with employees working with 
colleagues from around the world on a regular basis. 40% of IBM 
employees work outside the traditional office. They work at home, at 
customer locations or in airports and hotels around the world.
    73% of IBM managers supervise employees who work remotely--that is, 
not at the manager's location. The workplace of today is drastically 
different than it was when I began my career with IBM, 30 years ago. 
When I started, all of my colleagues came to the same building, and the 
workday began and ended at the same time. We started our day at 7:30 
and ended it at 4:12--there was no flexibility in our day. Since then, 
I have seen incredible change. Early on, I wouldn't have imagined the 
ability to work from home. And yet, I've worked from my home in North 
Carolina for the past 11 years--I was even promoted to an executive 
while doing so.
History of Diversity, Equal Opportunity & Flexibility
    IBM has a long history of commitment to its employees and has 
implemented workforce programs long before any government mandates 
required us to do so.
    <bullet> We hired our first black employee in 1899, and we had a 
written Equal Opportunity policy to hire individuals regardless of 
their race, color or creed in 1953, 11 years before the Civil Rights 
Act.
    <bullet> We hired our first disabled employee in 1914--years ahead 
of the 1973 Rehabilitation Act and the 1992 Americans with Disabilities 
Act.
    <bullet> In 1934, three decades before the Equal Pay Act, IBM 
recruited its first professional women, and IBM's Founder, T.J. Watson 
Sr., promised women ``the same kind of work for equal pay.''
    <bullet> In 1956, 30 years before the Family and Medical Leave Act, 
IBM initiated a three-month Leave of Absence (LOA) program, which 
provided women with the opportunity to take time off after the birth of 
a child and then return to the workplace--a policy that was extended to 
one year in the 1960s and three years in 1988, making it one of the 
most generous LOA policies in the nation.
    <bullet> In the 1980's, IBM began to see a dramatic change in the 
demographics of our workforce--driven in large part by the number of 
women entering the workforce, many of whom were part of two-career 
households. With the increase in dual-career couples, the need for 
flexibility began to surface. Employees increasingly cited good quality 
child care as a crucial issue in their work and their lives.
    <bullet> In 1992, the LOA program was coupled with a Flexible Work 
Program that enabled women the opportunity to ``phase'' back into the 
workplace on a part-time basis while still on Leave of Absence.
    As IBM sought ways to fulfill its employees' dependent care needs, 
it began to look at the development of a national service to which all 
employees could go for advice on child care and referrals to licensed 
child care services in their communities. When IBM discovered that no 
such service existed, it created one.
    With the assistance of Boston-based child care experts Fran Rodgers 
and Gwen Morgan, IBM developed the IBM Child Care Resource & Referral 
Service, along with Work/Family Directions, to manage the service for 
its employees. Both were inaugurated in July 1984. This national 
service employed a toll-free 800 telephone number that all employees 
could call to reach a child care expert. Employees who needed referrals 
for local child care facilities were put in touch with a local resource 
and referral agency in their own community that could provide referrals 
based on their specific needs and desires. The infrastructure that IBM 
created is now used by more than 15.6 million employees in many 
commercial and government programs throughout the world, and offered 
through Ceridian.
    To better understand the needs of its employees, IBM initiated, in 
1986, the first of its U.S. Work and Life Issues Surveys to obtain 
demographic data on its population, employee input about current 
programs, as well as suggestions for future programs. The survey, which 
has been repeated 5 times, with additional questions, in 1991, 1996, 
2001, 2004 and 2007, provided IBM with findings that have changed our 
thinking about employees and what is important to them, as well as the 
programs we offer.
    It became clear, for instance, from the first survey that many 
employees had dependent care responsibilities, and a significant 
portion, 10%, had elder care responsibilities. As a result of the 1986 
survey, IBM returned to Work/Family Directions to develop a service 
that mirrored the child care service--but for elder care this time. In 
February, 1988, IBM announced and launched the IBM Elder Care 
Consultation and Referral Service.
    As an employer, we want our employees to be as productive as they 
can be. To the extent employees are worried about factors outside of 
work--such as who is caring for their children or their parents--they 
are less likely to be as effective on the job as they can be.
    In 1990, IBM invested $25 million in a `Fund for Dependent Care 
Initiatives,' designed to invest in dependent care programs for our 
employees in their communities. We renewed the fund with an additional 
$50 million in 1992, and we were instrumental in joining with other 
corporations to create the American Business Collaboration (ABC). The 
ABC was formed out of a growing awareness among leading businesses that 
employees were being stretched by child and elder care 
responsibilities, and these pressures were directly impacting their 
effectiveness at work. At the same time, individual businesses realized 
that the costs of providing a full range of services and supports were 
often expensive, particularly for companies with diverse workforces in 
a variety of locations.
    In response to these pressures, the ABC was created with the 
knowledge that no individual company could do alone what the ABC could 
do collectively. Together, the companies invested in child care 
centers, family child care, school age, backup and elder care programs 
for their employees.
    IBM continues to invest in dependent care, investing more than $200 
million since 1983, including a $50 million Global Fund in 2001 and 
again in 2007. Today, IBM has investments in approximately 165 child 
care programs through initiatives focused on quality enhancement, staff 
training, education, access, etc. We have 225 child care center 
relationships--139 in the U.S. and 86 in other countries--through which 
IBM has purchased priority access slots for its employees. Rather than 
cutting back on its commitment in this difficult economy, IBM continues 
to back existing projects, and we are developing new programs that 
address the child care needs of the business, employees and the 
community.
    We also recently launched a Global Work/Life Council, chaired by 
executives around the world, to enhance our focus on work/life, which 
continues to be a key employment differentiator for IBM. The Council 
will provide executive sponsorship and insights to work/life and 
flexibility and also will play a visible role in promoting awareness of 
our programs throughout IBM.
Meeting the Needs of our Female Population
    It is important to highlight IBM's long-standing commitment to 
women employees and the policies we have created and implemented to 
meet the needs of our female population. In short, our goal is to be 
the premier global employer for women--particularly working mothers.
    As stated above, women represent more than 30 percent of IBM 
employees in the U.S., and close to one third (29%) are managers. IBM 
women in executive positions in the U.S. have increased from less than 
2 percent in 1980 to 25 percent at the end of 2008.
    Globally, female IBMers comprise more than 21% of the worldwide 
executive population (up from 11.5% at the end of 1995). While IBM is 
proud of what we have achieved so far, our dedication to attracting and 
retaining women employees is undiminished. We do this because it is 
critical to the success of our business, and not because we are 
mandated to do so.
    In 1995, IBM sponsored a Women's Task Force, one of eight task 
forces aimed at better understanding some of our constituencies (The 
eight constituencies were: Asian, Black, Gay/Lesbian/Bisexual/
Transgender, Hispanic, Native American, People with Disabilities, 
Women, and Men). The task force consisted of 15-20 executives 
representing each of the corporation's business segments and was 
charged with the following tasks:
    <bullet> define what the constituency requires to feel more 
welcomed and valued at IBM;
    <bullet> define what they can do, in partnership with the company, 
to maximize productivity; and
    <bullet> define what can be done to maximize the pursuit of 
business opportunities through the buying decisions of the 
constituency.
    With this charge, the Women's Task Force made the following 
recommendations:
    <bullet> implement employee network groups;
    <bullet> develop a regular part-time employment category;
    <bullet> integrate work/life balance flexibility into the business 
process;
    <bullet> enhance IBM's focus in the marketplace; and
    <bullet> provide additional focus on technical women and 
multicultural women.
    Since the task force completed its mission, IBM has implemented 
many of the recommendations brought forth, including a LifeWorks 
program,\1\ a regular part-time employment program and employee network 
groups (currently 49 of the 220 groups are women's groups).
---------------------------------------------------------------------------
    \1\ LifeWorks is a program to help employees handle the demands of 
daily life, at work and at home, through a wide array of innovative 
features. Through LifeWorks, employees have access to trained 
specialists who are qualified to answer questions and provide 
information regarding dependent care issues, adoption, adult 
disabilities, parenting, school achievement, planning for college, or 
caring for oneself. Employees can also access an online database to 
find information and download material at any time. Employees also have 
access to up to 6 free hours of elder or adult care management services 
annually through the LifeWorks program. Employees can choose from a 
variety of services such as:
    <bullet> In-person assessment of an adult or older relative's 
environment, functioning, options for services, or a change in 
residence if needed
    <bullet> Check-in services, by telephone or in person, to keep 
aware of your relative's condition and care and let you know of any 
changes or concerns
    <bullet> Help to manage the different services your relative may be 
using or to arrange for new services
    <bullet> On-site evaluations of nursing homes and assisted living 
facilities to help you compare and choose facilities
    <bullet> Professional assistance to help you better understand 
bills and insurance, provide support with family meetings, and attend 
visits at nursing homes, hospitals, or with doctors
    <bullet> Respite care in your relative's home to provide time off 
for family members who care for an adult or older relative.
---------------------------------------------------------------------------
    IBM's philosophy on women employees is simple: IBM has attempted to 
learn and address the specific needs of women and to create services 
that address those needs. We believe the use of these services leads to 
a more effective and productive employee who will contribute her best 
to the corporation. We believe these key programs provide a foundation 
for our women, and our ultimate measurement is for female employees, 
particularly working mothers, to aspire to both an executive life and a 
family.
The ``New Normal''
    Enabling our employees to manage their work and personal life is a 
business imperative. We understand all of our employees have a personal 
life, and our programs are meant to assist them in being productive on 
the job. We also recognize that the way we work has changed from past 
practices. The traditional 9 to 5 workplace no longer exists for most 
of us. Traditionally, we centered our workweek based upon a Monday-
Friday routine in the local geography in which our employees operated. 
We also tended to work fixed and continuous schedules centered on a 9 
to 5 workday from a fixed location, within buildings owned or leased by 
IBM.
    Additionally, we worked in co-located teams, predominantly 
nationally focused, that operated within the same time zone. And if 
there were global interactions, they primarily occurred at the more 
senior levels of the organization. Moreover, while 10 years ago we did 
have the use of technology that enabled instantaneous communication, 
these tools tended to be limited to the workplace.
    Today, IBM is a globally integrated enterprise. Now, in what we 
describe as the ``new world of work,'' many of us have regular 
interactions with our colleagues around the world. Those contacts now 
occur at almost every level of the organization. The business 
requirements, in fact, dictate variable, non-continuous work schedules, 
particularly for many of us who deal with people in multiple time 
zones.
    We've seen a great rise in the number of employees who work in non-
traditional offices, for example, those who work at home, those who are 
mobile, and those who work from client locations. In fact, those 
employees now constitute 40% of the total IBM workforce and 51% of our 
U.S. workforce.
Enabling Workforce Flexibility: A Corporate Priority
    The new world of work for IBM is characterized by a philosophy that 
work is something one does, not a place one goes. It also is 
characterized by rapid changes in technology and dynamic markets and an 
imperative from our clients for 24/7 availability of our systems and 
services. Companies cannot turn back the clock on this dynamism, but we 
do have an opportunity to create a new way of working that relieves 
some familial and personal pressures.
    In many respects, the diversity policies IBM first created in the 
1990s anticipated the ``new normal.'' IBM's integrated work/life 
strategy, designed to accommodate working parents and those with other 
responsibilities, consists of three pillars: culture, flexibility and 
dependent care.
    Culture pertains to what our employees are telling us. We conduct a 
number of employee surveys--most notably the IBM Global Work/Life 
Survey--to gather input and data necessary to understand the issues and 
programs on which we need to focus. We combine that with training and 
commitment from our managers and executive team, consistent with our 
business strategy. The 2nd pillar--Flexibility--consists of a multitude 
of employee offerings, and the 3rd pillar--Dependent Care (both child 
and elder)--is a growing issue for our global employee population.
    We strongly believe that the way we work today requires 
flexibility--flexibility in meeting the requirements of our clients and 
customers, while also managing our personal lives. The most recent 2007 
Global Work/Life Survey showed the importance our employees place on 
flexibility, affirming that the more flexibility employees have in 
where and when work gets done, the less difficulty they have in 
balancing the needs of their work and personal life. The clear message 
was that we needed to give employees the tools and the responsibility 
to manage their work and lives as they deem necessary and appropriate.
    Thus, we created six flexibility principles that make up the 
framework for the options we provide employees:
    1. Focus on results: Work is something you do, not a place you go. 
Focus on results, setting goals and measuring performance.
    2. The Enterprise doesn't stop: In a globally integrated 
enterprise, the business never stops. Somewhere in the world, IBMers 
are working on solutions for clients across the planet.
    3. Balancing of needs: Flexibility encompasses how, where and when 
work gets done, and it is a tool for getting work done. IBM is 
committed to providing its employees the greatest degree of flexibility 
while balancing the needs of our clients, our business, team 
effectiveness and the individual IBM employee.
    4. Trust and personal responsibility: Consistent with our core 
value of ``trust and personal responsibility in all relationships,'' 
IBM expects managers and employees to make decisions, including those 
about flexibility options, consistent with this value and to 
demonstrate personal responsibility to meet business commitments.
    5. Range of options: Flexible work options are a vehicle for IBM to 
meet the needs of our global clients and can be employee or management 
initiated; however, all options must be management approved. Open 
dialogue is important to understand and secure support for the most 
flexible option, which may include varied work times, part-time, job-
share, work from home, etc., depending on the needs of the business 
division, client or individual employee.
    6. Understanding differences: Operating effectively in the new 
world of work and in a globally integrated enterprise requires 
sensitivity to a broad range of differences. This requires every IBMer 
to exercise care and judgment in considering the needs of our global 
stakeholders--clients, colleagues, and the communities in which we 
operate. Each of us must take responsibility to explore, understand and 
reflect differences in culture, customs, time of day, holidays, 
language, business requirements, the personal needs of stakeholders and 
the impact of our decisions on business dealings. Careful inquiry and 
dialogue is required, as is the need to adapt and be flexible, as 
appropriate, to best meet the needs of everyone concerned.
    In order to meet the needs of our employees, IBM offers a variety 
of flexible work options, which include:
  
        Compressed/Flexible Work           Reduced Work Schedule
 Week
        Individualized Work                Job Share
 Schedule
        Leave of Absence                   Mobile
        Part-time                          Work-at-Home
    IBM has received widespread recognition for our commitment to work/
life program implementation. For 22 consecutive years, IBM has been 
recognized as one of the Top 10 Best Companies for Working Mothers by 
Working Mother Magazine and has been on the magazine's 100 Best Company 
List since its inception 24 years ago. IBM and one other company, 
Johnson & Johnson, are the only two companies to be on the list every 
year. Our recognition, however, is not limited to work/life. We 
recently were recognized by the Society of Hispanic Professionals as 
the Employer of the Year, and we were named one of the top companies 
for Executive Women by NAFE. Additionally, among many other honors, IBM 
has a perfect score of 100 for 7 consecutive years on the Human Rights 
Campaign Corporate Equality Index.
Challenges to Workforce Flexibility Rooted in FLSA
    As I noted at the outset of this testimony, implementing these 
programs that employees value so highly is not without its challenges. 
In today's extremely competitive business environment, we must manage 
our employee population to the best of our ability within the confines 
of current labor law.
    At the same time, technology is enabling us to work from anywhere, 
at any time we choose. For many people, the lines between what is and 
isn't work are blurring. However, certain outdated and unclear 
provisions within the U.S. Fair Labor Standards Act limit certain 
flexible arrangements for non-exempts and negatively impact a non-
exempt's ability to manage his/her time in the way that makes most 
sense, both personally and professionally. These burdensome rules 
restrict non-exempts' ability to work from home, to take a few hours 
off to see their child's school play, or visit their elderly parents in 
a nursing home during the day.
    We believe that clarifying and bringing the law up to date, such 
that it is relevant to the changing times and needs of employees both 
today and in future years, will ensure our ability to maintain and 
adapt our flexibility policies for a broader segment of the employee 
population.
    Specifically, I wish to highlight the following issues:
    <bullet> Computer professional exemption
    <bullet> ``De minimus'' use of technology
    <bullet> Employer safe harbor from unauthorized overtime
    <bullet> Inside/outside sales
    Computer Professional Exemption: The Computer Professional 
exemption was first introduced in 1990, nearly 20 years ago, to address 
the absence of any exemption for the developing computer industry. The 
exemption criteria, defined narrowly and based on outdated job 
responsibilities, do not align to modern IT jobs and have not kept up 
with changes in responsibilities of those professionals. Moreover, 
modern computer professionals require a higher level of thought and 
knowledge basis to perform their duties, and they are highly educated, 
often have advanced degrees and keep up with changing technology. 
Despite this, many computer professionals must be classified as 
nonexempt under current law.
    The Computer Professional exemption requires that employees design, 
develop, document, analyze, create, or modify computer systems or 
programs. Regulations and case interpretation generally apply this work 
to program code or operating systems. Courts and the Department of 
Labor do not incorporate into the exemption many technical 
professionals that design or maintain existing systems and 
applications.
    The narrow and outdated definition of a computer professional 
limits employee flexibility because, as a non-exempt, employees and 
employers must strictly account for hours worked. The strict accounting 
necessitates, in many cases, employees not be allowed to partake in the 
numerous flexible work options available to exempts, since hours worked 
must be closely tracked and verified. In addition, their non-exempt 
status limits their ability to use additional technology when and how 
it best meets their business obligations.
    Our recommended solution is to modernize the definition by 
explicitly including the broader range of 21st century computer-related 
duties, such as updating, maintaining and testing of existing 
applications without modifying code (e.g., Tier 2 support and above, 
database administrators, testers, etc.) that some professionals perform 
today.
    ``De minimus'' Use of Technology: For non-exempt employees, all 
time worked must be recorded and compensated. However, the modern 
workplace gives rise to minor IT-related activities outside of the work 
day (e.g., checking email/calendar/voicemail before or after leaving 
for work, or using a PDA to check a schedule change). The ``de 
minimis'' exception addressing these circumstances is not defined in 
the law, leaving open to varying interpretations what activity is 
considered compensable, as well as what activity triggers the start of 
the work day. Unfortunately, there has been a lack of consistency in 
current interpretation of these issues. This is a problem that results 
in legal uncertainty and risk; it also interferes with our ability to 
provide non-exempts work place and time flexibility, as well as limits 
certain technology and/or access to technology to non-exempt employees, 
outside of official work hours or outside of the official work place.
    Our recommended solution is to update and clarify the rules, such 
that insignificant IT-related activities are explicitly included in the 
``de minimis'' exception and are not considered ``time worked.'' Also, 
we would like to clarify that, in the event that insignificant IT-
related activities do constitute time worked, these activities do not 
trigger the start of the work day. Thus, the subsequent normal commute 
would remain non-compensable time.
    Employer Safe Harbor From Unauthorized Overtime: Today, many 
employees work from home, making it difficult for some employers to 
monitor and validate the amount of time spent working (both for 
employees and managers). The current standard that the employer is 
liable if it knew or ``should have known'' an employee was working 
overtime could mean the employer is liable for overtime even when 
unauthorized, and the employer may not be allowed to recapture payments 
for unauthorized overtime. Given these standards and liability 
exposure, some employers cannot risk having employees work from home or 
accessing employer-provided technology outside the workplace, given 
managers' difficulty in validating the time. Plain and simple, this 
limits flexibility in work time and work place for the employees. 
Additionally, in many cases, employees' inability to possess or use 
this technology outside of strict working hours or the work place is 
not what they desire. Many get quite upset about this, in fact.
    Our recommendation is that the statutory language be clarified such 
that employees cannot unilaterally decide to work overtime. And, if 
they do, the employer is not liable for overtime payments, except in 
the case of willful wrongdoing by the manager.
    Inside/Outside Sales & Lack of Equality Under the Law: The Fair 
Labor Standards Act creates an artificial disparity between ``inside'' 
and ``outside'' sales employees. Specifically, sales employees who 
travel out of the office to a customer's place of business are exempt, 
while employees who conduct sales from a fixed office location are non-
exempt. In other words, the non-exempts must be paid on an hourly basis 
and be subject to strict record keeping requirements, rigid time 
schedules and more stringent monitoring of their work.
    We and others across many industries believe these restrictions are 
out of sync with today's customer service needs, as well our sales 
employees' pursuit of and ability to enjoy greater workforce 
flexibility to balance both their work/family needs and their ability 
to increase their earnings. These restrictions create an artificial and 
outdated distinction between sales reps, although both call on the same 
territories, have the same accounts, have challenging sales quotas, 
work in partnerships on teams together and are paid off the same sales 
results. The legal limitations associated with non-exempt inside sales 
also make it hard for us to attract and retain the best talent for this 
critical element of how we approach the marketplace.
    Our recommendation is to eliminate this artificial and outdated 
distinction under the FLSA to account for 21st century communication 
and sales methods. Inside sales employees (currently non-exempt) should 
be treated the same as their outside sales counterparts (exempt) and 
enjoy equal work/life flexibility options, career opportunities, and 
tools to perform their job. Under these arrangements, the compensation 
structure for sales roles will equitably support pay for performance 
based on sales targets and achievement.
Conclusion
    The world of work in the United States, and around the globe, is at 
a crossroads. In the 21st century, how work gets done, and where it 
gets done today are vastly different than a mere decade ago. New 
technology and globalization have reshaped our economy and our way of 
life. For American women to maintain the gains we have made, and to 
ensure the flexibility that accommodates work/life balance, we need to 
adjust ways of thinking about work, and make legislative changes to 
keep labor law relevant.
    Madame Chairwoman and Members of the Committee, I hope the IBM 
experience I have discussed, and our suggestions for related FLSA 
reforms, are helpful. Thank you for the opportunity to testify before 
you today, and I look forward to answering any questions you may have.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much. [Applause.]
    Stephanie Bornstein.

   STATEMENT OF STEPHANIE BORNSTEIN, ASSOCIATE DIRECTOR, THE 
     CENTER FOR WORKLIFE LAW, U.C. HASTINGS COLLEGE OF LAW

    Ms. Bornstein. Good morning. Thank you for inviting me to 
testify today.
    My name is Stephanie Bornstein, and I am the Associate 
Director of the Center for WorkLife Law at U.C. Hastings 
College of the Law, which is a research and advocacy 
organization directed by Professor Joan Williams that works to 
identify and prevent employment discrimination based on family 
caregiving responsibilities.
    At WorkLife Law, we believe that a wide range of groups 
have a role to play in reshaping the workplace to better fit 
the people who work there, who are simultaneously trying to 
both support and care for their families. So we have a unique 
six stakeholder model. We work with employees and employers, 
plaintiffs and management side attorneys, unions, and public 
policy makers.
    My testimony today is to highlight two related problems 
caused by the workplace work force mismatch that the Shriver 
Report so vividly described that pose underlying and often 
unrecognized hurdles in efforts to remedy work-family conflict.
    First is bias against mothers and other caregivers in the 
workplace that can result in discrimination known as family 
responsibilities discrimination or FRD. Pregnant women, mothers 
and fathers of young children or employees with aging parents 
or sick spouses or partners may be rejected for hire, passed 
over for promotion, demoted, harassed or terminated despite 
good performance because their employers make personnel 
decisions based on stereotypes of assumptions.
    FRD is typically caused by unexamined bias about how 
employees with family caregiving responsibilities will or 
should act. The most common form or FRD is what is known as the 
maternal wall, which are stereotypes that mothers are less 
reliable, less competent or less committed to the job, often 
triggered when an employee's motherhood becomes salient, for 
example, when she announces that she is pregnant, returns from 
maternity leave or adopts a flexible work arrangement.
    As documented in the Shriver Report, women now make up half 
the U.S. workforce and 80 percent of American families with 
children no longer fit the traditional male bread winner, 
female homemaker model. Although both women and men shoulder 
caregiving responsibilities, women still shoulder significant 
more family work, and as Joan Blades mentioned, studies who 
that bias against mothers at work is among the strongest and 
most open form of gender discrimination today.
    There was a Cornell University study that showed that when 
mothers and non-mothers with similar qualifications were 
compared, the mothers were 79 percent less likely to be 
recommended for hire, 100 percent less likely to be recommended 
for promotion, offered $11,000 less in starting salary for the 
same job, and held to higher performance and punctuality 
standards.
    FRD also negatively impacts fathers who take an active role 
in family caregiving. Studies document that fathers who took 
even a short work absence due to family caregiving or family 
needs were severely penalized at work for that. So, in short, 
caregiver bias polices women into caregiving roles and then out 
of them into bread winner roles.
    Caregiver bias affects employees regardless of industry or 
income. Sometimes it is misunderstood as a professional woman's 
issue, but it is really not. Anyone who has a job and a family 
can experience this, fire fighters, teachers, grocery clerks, 
lawyers, and it is a growing problem. Lawsuits are on the rise, 
and we run a hotline for workers and calls to our hotline have 
dramatically increased in the last two years.
    The second issue I want to highlight is the related issue 
of stigma against those who work flexibly. Flexible work 
arrangements have been around for a long time, but a key 
stumbling block to their success is that employees often 
encounter bias and marginalization when they try to work part 
time or flexibly. Like caregiver discrimination, this what we 
are calling flexibility stigma stems from outdated workplace 
norms that are unrealistic given today's work force, and the 
flexibility stigma mirrors and often overlaps with caregiver 
bias because the common perception is that people who need to 
work part time or flexibly are doing so for caregiving reasons.
    So people who are on inflexible or part-time schedules can 
encounter similar stereotypes from their supervisors and 
employers whether consciously or not that they are less 
reliable, less competent or less committed to the job or less 
ambitious or suitable for promotion.
    The most clear example of the flexibility stigma is the 
extreme economic and career penalties that part-time workers 
experience in the United States. American workers who work part 
time earn 21 percent less per hour than those who work full 
time, and this is a part-time penalty when compared to other 
countries. It is over twice as high as workers in the United 
Kingdom and seven times as high as workers in Sweden.
    Another common example is when employers actively try to 
get rid of workers who are working part time or flexibly either 
by making working conditions so intolerable that they feel like 
they have to leave or by actually terminating or ending those 
types of policies.
    As Ms. Ferris just demonstrated, there are many bottom line 
business benefits of flexibility without stigma, and it is 
wonderful that IBM has been such a leader in this area, and 
flexibility is also key to helping workers meet both work 
demands and caregiving demands successfully, but because of the 
negative economic and career consequences for employees who use 
workplace flexibility, employees engage in what social 
scientists call bias avoidance, and they are not even taking 
advantage of what might be offered to them. Employees may be 
deterred from using even the best workplace flexibility 
policies if they do so at their own peril.
    To sum up, caregiver discrimination and the flexibility 
stigma have significant costs for both employees and employers 
alike. Employers suffer the causes not only of potential legal 
liability for discrimination, but also the causes of unplanned 
absenteeism, worker attrition, reduced talent pool, lower 
productivity and higher health care costs.
    Workers and employers both benefit when bias against 
caregivers and stigma against working flexibly is prevented and 
addressed effectively.
    Thank you so much for the opportunity to testify today. 
[Applause.]
    [The prepared statement of Ms. Bornstein follows:]

     Prepared Statement of Stephanie Bornstein, Associate Director,
                      the Center for WorkLife Law

    Chairwoman Woolsey, Ranking Member McMorris Rodgers, and Members of 
the Subcommittee on Workforce Protections, thank you for inviting me to 
testify today on the impact of women's growing workforce participation 
and the workplace issues addressed in The Shriver Report: A Woman's 
Nation Changes Everything. My name is Stephanie Bornstein, and I am an 
employment attorney specializing in gender discrimination and the 
Associate Director of the Center for WorkLife Law (``WorkLife Law'' or 
``WLL'') at the University of California, Hastings College of the Law. 
WorkLife Law is a research and advocacy organization, directed by 
Distinguished Professor of Law Joan C. Williams, that works to identify 
and prevent employment discrimination against family caregivers 
(``family responsibilities discrimination'' or ``FRD''), and to address 
the stigma against working flexibly (the ``flexibility stigma''). My 
testimony today will serve to highlight the related problems of FRD and 
the flexibility stigma that stem from the mismatch of today's workplace 
to today's workforce--a mismatch expertly documented in The Shriver 
Report.
    The central tenet of WorkLife Law is that a wide range of groups 
have a role to play in reshaping workplaces to better fit the reality 
and values of those who work there--Americans who must simultaneously 
support, and care for, their families. WLL works to address work/family 
issues with six key stakeholders, groups usually not found at the same 
table: employees, employers, plaintiff-side employment lawyers, 
management-side employment lawyers, unions, and public policymakers. 
WLL also works with social scientists to spark interdisciplinary 
studies of bias against caregivers.
    WorkLife Law has engaged in more than a decade of research and work 
with these stakeholders on issues of caregiver discrimination, 
workplace flexibility, and work/family balance. WLL pioneered the 
research of family responsibilities discrimination (``FRD''),\1\ 
maintains a database of over 2000 FRD cases, and tracks trends and 
recent developments in FRD litigation. We provide resources and 
training materials to employers and their attorneys to help prevent FRD 
in the workplace; educate plaintiffs' attorneys about FRD case law; 
provide resources to unions and maintain a database of union 
arbitration decisions involving FRD; and provide technical assistance 
to policymakers who seek to address FRD and the flexibility stigma. By 
working with all stakeholders, we have developed nuanced and balanced 
viewpoints and aim to create usable and effective strategies for 
preventing and addressing FRD and flexibility stigma.
Discrimination against employees with family responsibilities
    The reality of today's workforce is that the vast majority of U.S. 
workers have family caregiving responsibilities they must juggle with 
work. As documented in The Shriver Report, women now make up half of 
the U.S. workforce (49.9%),\2\ and four-fifths (80%) of American 
families with children at home no longer fit the traditional male 
breadwinner/female homemaker model.\3\ Although both men and women 
shoulder caregiving responsibilities, women still shoulder 
significantly more family work. Most American women have children (81% 
by age 44),\4\ and mothers still spend nearly twice as much time as 
fathers doing core households tasks (such as cooking and cleaning) and 
twice as much time as fathers caring for children as a primary 
activity.\5\ Many American families also bear a heavy load of elder 
care: one in four workers has elder care responsibilities.\6\
    These realities affect not only working women and families 
themselves, but also businesses that seek to hire and retain talented 
employees while keeping costs in check. Too often, businesses fail to 
recognize the extremely high costs they incur by not matching their 
workplace to the workforce of today--costs that include turnover costs 
(recruiting, hiring, training, lost productivity) and legal liability 
for discrimination claims they may not have foreseen.
    Family responsibilities discrimination (FRD), also known as 
caregiver discrimination,\7\ is employment discrimination against 
workers based on their family caregiving responsibilities. Pregnant 
women, mothers and fathers of young children, or employees with aging 
parents or sick spouses or partners may be rejected for hire, passed 
over for promotion, demoted, harassed, or terminated--despite good 
performance--because their employers make personnel decisions based on 
stereotypes or assumptions. FRD is typically caused by unexamined bias 
about how employees with family caregiving responsibilities will or 
should act. For example, a supervisor may assume that a man who is 
taking care of his elderly, ill father will be distracted, or that a 
woman who just had a baby will be less interested in or committed to 
work, and therefore not promote him or her, despite the fact that the 
worker continues to maintain the same high level of performance.
    FRD has a particularly significant impact on women. Bias against 
mothers at work is among the strongest and most open form of gender 
discrimination today. The most common form of FRD is ``maternal wall'' 
bias--stereotypes that mothers are less reliable, less competent, or 
less committed to the job. Maternal wall bias is triggered when an 
employee's motherhood becomes salient, for example when she announces 
she is pregnant, returns from maternity leave, or adopts a flexible 
work arrangement. A well-established social scientific literature on 
the ``maternal wall'' has shown that mothers experience dramatic 
workplace discrimination, with one Cornell University study showing 
that mothers were recommended for hire 79% less than similarly 
qualified non-mothers, recommended for promotion 100% less, held to 
higher performance and punctuality standards, and offered $11,000 less 
in salary for the same job.\8\ FRD also negatively impacts fathers who 
take an active role in family caregiving. Men can also experience 
gender bias when they take a more active role in caregiving than is 
seen as appropriate for men. Fathers who seek to actively participate 
in caring for their children are also strongly penalized: studies 
document that fathers who took a parental leave or even a short work 
absence due to family caregiving are recommended for fewer rewards, 
viewed as less committed, and given lower performance ratings.\9\
    FRD affects employees regardless of industry or income. FRD affects 
men and women across the income spectrum and employers in every 
industry. Those who have been affected by FRD include employees in low-
wage jobs such as grocery clerk,\10\ mid-level jobs such as medical 
technician,\11\ blue-collar jobs such as prison guard,\12\ pink-collar 
jobs such as receptionist,\13\ and women in both traditionally female 
professions sucteaching\14\ and professional/managerial jobs 
traditionally held by men, such as attorney\15\ and executive.\16\
    FRD is a growing problem, affecting so many workers and employers 
because of the changing demographics of today's working families. FRD 
lawsuits are on the rise, and can result in significant liability for 
employers. To date WorkLife Law's database of FRD cases includes over 
2000 cases alleging FRD, with the largest individual recovery at $11.65 
million\17\ and the largest class recovery at $49 million.\18\ A 2006 
WorkLife Law report analyzing cases then in our database showed a 400% 
increase in the number of FRD lawsuits filed between 1996 and 2005 as 
compared to the prior decade, 1986 to 1995.\19\ WorkLife Law also runs 
a hotline for workers who believe they have experienced FRD; in 2008, 
we received approximately 125 inquiries, double our previous annual 
average, and in the first six months of 2009, we received approximately 
92 inquiries, putting us on track to exceed 175 inquiries in 2009.
Stigma against those who work flexibly
    Flexible work arrangements (FWA) were introduced in the early 1970s 
and have been very gradually gaining traction since then. A key 
stumbling block to the success of employers' flexible work arrangements 
is that employees often encounter bias and marginalization when they 
try to work part-time or flexibly. Like caregiver discrimination, this 
``flexibility stigma'' stems from outdated workplace norms that are 
unrealistic in today's workplaces--workplaces that are still designed 
around an ``ideal worker'' who works full-time, full force, for 40 
years straight while someone else takes care of domestic 
responsibilities.\20\
    The flexibility stigma mirrors and often overlaps with bias against 
workers with family caregiving responsibilities. Because the common 
perception is that most employees who seek to work flexibly do so for 
family caregiving reasons, employees who work flexibly can trigger in 
supervisors and employers (whether consciously or not) stereotypes like 
those encountered by working mothers--i.e., that they are less 
reliable, less competent, or less committed to the job.
    Employees who work part-time or on flexible hours often encounter 
unspoken and often unrecognized assumptions on the part of supervisors 
and co-workers about their commitment, dependability, worth, ambition, 
competence, availability, and suitability for promotion. These 
assumptions affect how supervisors perceive flexible workers and their 
performance, which in turn affects the assignments they receive, and 
how their work is evaluated and rewarded. As a result, assumptions can 
add up to create a significant stigma against working flexibly that 
sets up a lesser ``flex track,'' much like maternal wall or caregiver 
bias sets up a ``mommy track'' in the workplace.
    Perhaps the most obvious example of the flexibility stigma is the 
extreme economic and career penalties that part-time workers experience 
in the United States. American workers who work part-time earn 21% less 
per hour than those who work full-time--a part-time penalty over twice 
as high as in the United Kingdom and seven times higher than in 
Sweden.\21\ Another common example of flexibility stigma is when a 
supervisor actively tries to get rid of a worker on part-time or 
flexible schedule, either by creating situations that justify 
termination or by making work so unpleasant that the employee quits.
    Though research shows the bottom-line business benefits of 
flexibility without stigma, it also documents negative consequences for 
employees who use workplace flexibility policies.\22\ Because of these 
negative consequences, employees often engage in what social scientists 
refer to as ``bias avoidance,'' choosing to forgo altogether 
flexibility to which they may be entitled. The stigma that attaches to 
working part-time or flexibly can deter employees from taking advantage 
of even the most generous flexible work arrangements--flexibility that 
they, and their families, sorely need.
    In conclusion, The Shriver Report highlights vividly that today's 
workplaces and workplace policies are outdated, ill-fitted to the 
realities of the people who work there. Two significant problems 
created by this lack of fit are (1) employment discrimination against 
mothers and other workers with family caregiving responsibilities, and 
(2) the stigma against working flexibly that deters employees from 
taking advantage of part-time or flexible work arrangements.
    Family responsibilities discrimination and the flexibility stigma 
have significant costs for employees and employers alike. While 
employees struggle to overcome stereotypes and be both good workers and 
good family members, employers suffer the costs not only of potential 
legal liability for discrimination, but also of unplanned absenteeism, 
worker attrition, reduced talent pool, lower productivity, and higher 
health costs.\23\ Workers and employers both benefit when bias against 
caregivers and stigma against working flexibly is prevented and 
addressed effectively.
    Thank you, again, for the opportunity to testify today.
                                endnotes
    \1\ See, e.g., Joan C. Williams & Cynthia Thomas Calvert, WorkLife 
Law's Guide to Family Responsibilities Discrimination (Center for 
WorkLife Law, 2006 & updates); Joan C. Williams & Stephanie Bornstein, 
The Evolution of ``FReD'': Family Responsibilities Discrimination and 
Developments in the Law of Stereotyping and Implicit Bias, 59(6) 
Hastings Law Journal 1311 (2008).
    \2\ Heather Boushey, The New Breadwinners, in The Shriver Report: A 
Woman's Nation Changes Everything 2 (Maria Shriver & The Center for 
American Progress, 2009), available at http://www.awomansnation.com/
economy.php.
    \3\ Heather Boushey & Ann O'Leary, Executive Summary, in The 
Shriver Report: A Woman's Nation Changes Everything 1 (Maria Shriver & 
The Center for American Progress, 2009), available at http://
www.awomansnation.com/execSum.php.
    \4\ Jane Lawler Dye, Fertility of American Women: June 2004, 
Population Characteristics 2 (U.S. Census Bureau, Dec. 2005), available 
at http://www.census.gov/prod/2005pubs/p20-555.pdf (stating that 19.3% 
of women aged 40 to 44 had no children).
    \5\ Joan C. Williams, Jessica Manvell & Stephanie Bornstein, ``Opt 
Out'' or Pushed Out?: How the Press Covers Work/Family Conflict 20, 20-
22 (Center for WorkLife Law, 2006), available at http://
www.worklifelaw.org/pubs/OptOutPushedOut.pdf (citing Suzanne M. Bianchi 
& Sara B. Raley, Time Allocation in Families, in Work, Family, Health, 
and Well-Being 31-33 (Suzanne M. Bianchi, Lynne M. Casper & Rosalind B. 
King eds., 2005)).
    \6\ Jody Levin-Epstein, Getting Punched: The Job and Family Clock, 
Center for Law and Social Policy 3 (July 2006), available at http://
www.clasp.org/publications/getting--punched--fullnotes.pdf.
    \7\ See Enforcement Guidance: Unlawful Disparate Treatment of 
Workers with Caregiving Responsibilities, Equal Employment Opportunity 
Commission (2007), available at http://www.eeoc.gov/policy/docs/
caregiving.pdf.
    \8\ Shelley J. Correll, Stephen Benard & In Paik, Getting a Job: Is 
There a Motherhood Penalty?, 112 Am. J. Sociol. 1297, 1316 (2007).
    \9\ See Tammy D. Allen & Joyce E. Russell, Parental Leave of 
Absence: Some Not So Family-Friendly Implications, 29 J. Appl'd Soc. 
Psychol. 166, 166 (1999); Julie H. Wayne & Bryanne L. Cordeiro, Who Is 
a Good Organizational Citizen?: Social Perception of Male and Female 
Employees Who Use Family Leave, 49 Sex Roles 233, 233--34 (2003); Adam 
B. Butler & Amie Skattebo, What Is Acceptable for Women May Not Be For 
Men: The Effect of Family Conflicts with Work on Job Performance 
Ratings, 77 J. Occup. & Org. Psychol. 553, 553--59 (2004).
    \10\ Carter v. Shop Rite Foods, Inc., 470 Supp. 1150 (N.D. Tex. 
1979)(manager refused to hire women for managerial positions because of 
their child care responsibilities).
    \11\ Flores-Suarez v. Turabo Medical Center Partnership, 15 F. 
Supp. 2d 79 (D.P.R. 2001)(employee fired while on bed rest; reinstated, 
but isolated and had more demanded of her than co-workers).
    \12\ Gorski v. New Hampshire Dept. of Corrections, 290 F.3d 466 
(1st Cir. 2002)(supervisor said ``no one is going to want you because 
you are pregnant'' and ``[w]hy did you get pregnant, with everything 
going on, why do you want another child?'').
    \13\ Van Diest v. Deloitte & Touche, 2005 U.S. Dist. LEXIS 22106 
(N.D. Ohio 2005) (employee laid off following leave to care for sick 
mother); Hill v. Dale Electronics Corp., 2004 U.S. Dist. LEXIS 25522 
(S.D.N.Y. 2004) (after employee announced her pregnancy, complaints 
were trumped up and she was fired).
    \14\ McGrenaghan v. St. Denis School, 979 F. Supp. 323 (E.D. Pa. 
1997)(teacher involuntarily transferred from full-day teaching position 
to half-day teaching, half-day resource aid position following the 
birth of her disabled son).
    \15\ Sigmon v. Parker Chapin Flattau & Klimpl, 901 F. Supp. 667 
(S.D.N.Y. 1995)(when law firm associate became pregnant, department 
chairman allegedly said ``With all these pregnant women around, I guess 
we should stop hiring women''; when she returned from maternity leave, 
the firm allegedly would not give her work, criticized her attitude, 
and terminated her); Halbrook v. Reichold Chemicals, Inc., 735 F. Supp. 
121 (S.D.N.Y. 1990)(in-house counsel forced to strike a ``bargain'', 
where she would stop raising women's issues in return for which 
management would stop harassing her about her maternity leave), later 
proceeding, 766 F. Supp. 1290 (S.D.N.Y. 1991); Trezza v. The Hartford, 
1998 WL 912101 (S.D.N.Y. Dec. 30, 1998)(lawyer with excellent 
performance evaluations not promoted after she had children).
    \16\ Strate v. Midwest Bankcentre, Inc., 398 F.3d 1011 (8th Cir. 
2004)(executive vice-president's position eliminated while she was on 
maternity leave and she was told not to apply for a new position); 
Santiago-Ramos v. Centennial P.R. Wireless Corp., 217 F.3d 46 (1st Cir. 
2000) (the only top executive who was female was fired, based on 
stereotyping).
    \17\ Dee McAree, Family Leave Suit Draws Record $11.65M Award: 
Chicago Verdict May Be Sign of Emerging Trend, National Law Journal, 
Nov. 11, 2002, at A4, available at http://www.law.com/jsp/
article.jsp?id=1036630387895.
    \18\ Verizon Paying $49 Million in Settlement of Sex Bias Case, 
Seattle Post-Intelligencer, June 6, 2006, available at http://
seattlepi.nwsource.com/business/272846--verizonbias06.html.
    \19\ Mary C. Still, Litigating the Maternal Wall: U.S. Lawsuits 
Charging Discrimination against Workers with Family Responsibilities 
(Center for WorkLife Law, 2006), available at http://
www.worklifelaw.org/pubs/FRDreport.pdf. WLL is in the process of 
updating this data. Preliminary results indicate a sharp increase in 
the number of FRD cases in 2007 (316 cases) and 2008 (348 cases) as 
compared to 2006 (176 cases). Plaintiffs prevail on motions, resulting 
in settlements, or win verdicts in approximately 50% of the cases. 
Settlements and verdicts average $100,000, and WorkLife Law has a 
database of over 125 verdicts that exceed $100,000; several are multi-
million dollar verdicts.
    \20\ See Joan Williams, Unbending Gender 1-3 (2000) 
(conceptualizing the ``ideal worker'' norm).
    \21\ Joan C. Williams, Jessica Manvell & Stephanie Bornstein, ``Opt 
Out'' or Pushed Out?: How the Press Covers Work/Family Conflict 31 
(Center for WorkLife Law, 2006), available at http://
www.worklifelaw.org/pubs/OptOutPushedOut.pdf (citing Janet C. Gornick & 
Marcia K. Meyers, Families That Work: Policies for Reconciling 
Parenthood and Employment, 63 Figure 3.4 (2003)).
    \22\ For examples, see Lotte Bailyn, Breaking the Mold: Redesigning 
Work for Productive and Satisfying Lives, 2nd Ed. (200); Jennifer 
Glass, Blessing or Curse?: Work-Family Policies and Mothers' Wage 
Growth Over Time, 31 Work and Occupations 367 (2004); Cynthia A. 
Thompson et al., When Work-Family Benefits Are Not Enough: The 
Influence of Work-Family Culture on Benefit Utilization, Organizational 
Attachment, and Work-Family Conflict, 54 J. of Vocational Behavior 392 
(1999); Leslie Perlow, Finding Time: How Corporations, Individuals, and 
Families Can Benefit from New Work Practices (1997).
    \23\ See, e.g., WFC Resources, Making the business case for 
flexibility, available at http://www.workfamily.com/Work-
lifeClearinghouse/UpDates/ud0043.htm (collecting studies).
                                 ______
                                 
    Chairwoman Woolsey. So we are going to do this a little bit 
differently than we would normally. I would like to offer the 
witnesses as we are asking questions and talking about certain 
issues for the next 45 minutes feel free to weigh in and have a 
conversation with each other. I think this will be very good.
    And, audience, I am sorry. This is a federal hearing 
procedure. Is that what you call it? It is a hearing, and there 
is no room for audience participation, except that you are 
here, and I love it that you are here.
    I want to tell a story for Claudia. It is heartbreaking for 
me that you are going through exactly what I virtually went 
through 45 years ago. My kids' father left us. They were one, 
three and five years old. I went back into the workforce. Now, 
remember this was 45 years ago. That is a long time. That is 
when they could ask you if you had children and if you have 
childcare and were you using birth control. I mean, they could 
do that. [Laughter.]
    And so I went to an agency, an employment agency, to get 
started with my job search. First of all, I was an executive 
secretary before then at a television station. It had been ten 
years since I had been at work because I had my children. I 
flunked all of the tests, the typing test, the shorthand test, 
and passed the intelligence test way above most people. So they 
wanted still to talk to me.
    And this woman that was interviewing me said, ``What is the 
matter?''
    And I said, ``I don't want to go to work.'' I had never 
intended to leave my children and be in the workforce. This was 
1968. I mean, I graduated high school with Good Housekeeping 
magazine being my Bible. [Laughter.]
    You know, I had college experience. I had work experience. 
I was a mother. I was going to be a perfect wife and a perfect 
mother.
    So this woman said, ``Well, okay. You know, we are going to 
send you on a practice interview because you have got to get 
going here, you know. You are going to tell the interviewer 
that you have always intended to go to work when your youngest 
child was one years old.'' [Laughter.]
    ``That you have a perfect marriage.'' I mean, I told her 
their dad had left. He was mentally ill. I mean, I say that 
lightly, but that was not light then.
    ``And you are going to tell them that you have got 
childcare across the street from your house.'' Total, one, two, 
three, lies. ``That is the only way you're going to get 
employed.'' So she said, ``I have got a place to send you right 
now, today.''
    And I went, took their test, did great, told my three lies, 
and got hired, the first job I interviewed for. That was Don 
Green how is the Green Music Center, Telecom Valley father, 
Telecom Valley of Sonoma County. I mean, you know, timing is 
everything. Luck is everything. I was so lucky. But I went to 
work as his secretary.
    Well, somewhere along the way, a few months, I told him the 
truth because I could not stand it. ``I told you three lies.''
    He was, ``I know.'' I mean, he could have fired me right 
then and there, but those lies I told are the same lies that 
have to be told today.
    Ms. Blades. Yes.
    Chairwoman Woolsey. That is the point of my story. What is 
the matter with the United States of America that we so 
undervalue children that we make their parents lie to have a 
job? [Applause.]
    So let's talk about, if you would, from your perspective 
the most important areas that we in the federal government need 
to change in order to make our kids know that we care enough 
about them that if their parents have to go to work, which 
parents do, that we are going to take care of these children. 
Because, you see, they are going to be teenagers. I mean, they 
are going to feel unsafe as little kids if we do not start 
caring about them. They are going to become teenagers. They are 
going to be really angry, and they will have every right to be.
    So what do we need to do? Where can we start?
    Joan.
    Ms. Blades. I am going to follow up on what you were just 
talking about. Actually when MomsRising was just getting off 
the ground, I came to Washington, D.C., and was in a house 
meeting talking about Kiki's story, and there were people there 
saying, ``Well, they can't ask her that.''
    And at that very same time, perversely enough because we 
were trying to get some protections so that could not be asked 
in Pennsylvania at that time. One of the MomsRising members was 
on the radio talking about maternal profiling, which is the 
discrimination against mothers in hiring wages and advancement, 
and she was getting call-ins from small businesses saying, ``I 
do not want to hire single moms. I have to be able to ask that 
question.''
    So though there is a perception in kind of a legislative 
community that this is handled, the reality out in the sticks 
is that there are companies that have best practices, but most 
companies or most people do not think there is any kind of rule 
against that. And my understanding, in fact, is that in terms 
of family responsibility you cannot if someone is married in 
about half of those states, but in terms of family 
responsibility, I think it is Alaska, and Stephanie, back me 
up, Alaska and Washington, D.C.
    Ms. Bornstein. D.C.
    Ms. Blades. That is it. So, ``do you have children?,'' gets 
asked all around this country every day, and we know what the 
outcomes are from your experience and the data. So that is 
something that is not even visible at the legislative level, 
and we have been trying to move this in Pennsylvania and are 
failing. I do not know. I am stumped. We are working on it.
    Chairwoman Woolsey. Maria.
    Ms. Ferris. I guess the question is what can we do, and I 
think, you know, clearly the idea in the story demonstrates 
that companies can do a lot, and we have offered a lot for 
women, as well as men, from a flexibility standpoint, but we 
want to do more. We want to really make sure that flexibility 
is something that is available to all of our employees.
    So to the extent that we can update current labor law to be 
more reflective of the way we work today I think would go a 
long way to helping us achieve that goal.
    Chairwoman Woolsey. So I think, if you will yield back to 
me, I think you know, I know you know that the barrier there is 
that there is flexibility law that is not in place, but there 
are proposals that give 99 percent of the choice to the 
employer and not to the employee. When we can find the place 
where it works for both employer and employee, we'll get there 
because it's very necessary.
    But to change overtime laws so that only the employer gets 
to set who benefits and what the hours are and when a person 
can and cannot take advantage of this new law, it is just not 
going to work because we will be taking steps backward.
    We really need you to help us because I know IBM is going 
to want to do it in the best interests of both. So let's work 
on that together. Okay?
    Ms. O'Leary. Chairwoman Woolsey, I think that this is a 
great point, which is how do we incentivize businesses to do 
what IBM is doing, but how do we also incentivize the small 
businesses who have real concerns and constraints when you have 
three people working for you and you are trying to figure out 
how to make this work.
    And I think one of the things that we have been talking 
about is looking to the model that has happened in the U.K. and 
Australia and New Zealand. They have something called right to 
request flexibility. Now, this does not require employers to 
grant flexibility, but what it does is it requires the 
employers to have a conversation with their employees and not 
to retaliate against them, not to demote them or fire them if 
they have that conversation.
    I think we should expand it in our country to talk about 
right to request flexibility and predictability for our low 
wage workers, but certainly I think that it is an important 
point that you were making, Chairwoman Woolsey, which is let's 
do it in a way that is good for the employer and the employee 
and does not impact the economic security of workers who 
necessarily rely on the importance of their overtime pay. So 
really trying to figure out a way to have this conversation, I 
think is such an important piece.
    If I can just point out one other thing, one of the things 
that we found in the polling that we did with the Shriver 
Report is that men want to see these changes, too, just as much 
as women, but what I want to point out in this room today--we 
have a couple of men.
    Chairwoman Woolsey. We do.
    Ms. O'Leary. But I think one of the things that is really 
interesting is that Michael Kimmel, who is a sociologist who 
wrote the chapter about men's responses, found that men are 
accepting of this. They want these changes, but they do not 
have the same political activism around these issues that women 
do, and certainly a number of your male colleagues, Congressman 
Stark, Senator Dodd, are engaged in these conversations. We 
need even more at this table in this room who are really 
working with us on these issues.
    So businesses, men, all of us together in government work. 
Thank you.
    Chairwoman Woolsey. Thank you.
    Ms. Bornstein. I would like to add just a thought on the 
FLSA issue. I think it is really important that IBM, who is a 
best practice employer, is raising these issues, and that, of 
course, makes us want to think through if a best practice 
employer is having concerns, obviously that's something that 
folks who want to advance this need to address.
    One concern about the issue of the FLSA that we would point 
out is that hours, overwork, is an extreme problem in the U.S. 
that contributes to work-family conflict, and data shows that 
workers are working longer hours than ever before, which 
exacerbates work-family conflict, and that exempt professionals 
have been hit the hardest by this trend.
    So you know, actually there are statistics that 30 percent 
of men who are in professional, exempt jobs, their full time is 
50 hours or more a week. That is a third. So I think we have to 
be really mindful.
    Chairwoman Woolsey. Exempt means they are not paid 
overtime.
    Ms. Bornstein. Right.
    Chairwoman Woolsey. Supposedly professional level.
    Ms. Bornstein. So I just think this underscores the data 
out there, and what is happening with hours underscores the 
need to be really cautious when we are looking at the FLSA in 
terms of not exacerbating the hours that are being worked.
    Just to comment on something that Joan Blades said about 
family responsibilities discrimination. Chairwoman, you asked 
what can be done, and I just want to point out that the Equal 
Employment Opportunity Commission issued guidance in 2007 and 
some more guidance in 2009 about caregiving discrimination, and 
how to sort of explain how it is illegal under existing law to 
some degree, and I think there is a lot of confusion.
    Joan's testimony points out that it actually is illegal if 
you are asking women but not men family questions because that 
is gender discrimination, but it is often not recognized that 
way.
    So I think one of the things that our organization is 
interested in is more education and training around that 
caregiver guidance, especially for employers who, you know, 
oftentimes some of this is completely unintentioned and just 
based on deep rooted stereotypes that people do not even know 
they have.
    And so I think a lot more education and training around the 
caregiving guidance would be very helpful.
    Chairwoman Woolsey. Claudia.
    Ms. Zamorano. As a self-employee, it is really hard for 
nannies like me that really have to struggle in finding a job. 
We have to show good, excellent, excellent references for them 
to see that we can provide good care for the children, in 
taking classes, bringing diplomas, and that is a good thing.
    But many of us or many of the women out there do not get 
the help that I am getting right now. We are struggling out 
there. They do not see us seriously. They do not take us 
seriously. It is a very tough job. I really think that 
something needs to be done as how to come out of that struggle, 
how to help ourselves not only to take care of those families, 
but also to take care of our children because our children are 
living alone.
    I see kids out there on the streets at very late hours at 
night. Where are their parents? They are working. They have no 
childcare for them. Nobody can provide for them. So how do we 
do this?
    We really need the help.
    Chairwoman Woolsey. And I agree with you totally. The 
Balancing Act addresses this by knowing that we need before 
school care, after school care that would be welcoming and fun 
and important to these latch-key kids because they have a place 
to go, a place that they feel comfortable, wanted, loved, 
supported, and that all comes from a society that says, ``Okay. 
Your folks have to work. Your mom has to be a nanny and take 
care of other people's kids. You know, you can't be on the 
street, but we want you to be safe with us.'' And that is what 
is missing. We do not care about those kids enough.
    Ms. Zamorano. And I also went through what you went through 
years ago. A year ago I was hired by this family, and the first 
thing that came to my mind is like I cannot bring my problems 
to work. So I started working there and one time she made a 
comment of, ``A friend of mine has problems and they are 
getting divorced. So I think she should stay there until her 
kids are 18 and just be there,'' and I am like okay. 
[Laughter.]
    I am like she put a lock in my mouth. I could not tell her 
anything. So it is hard. It is really hard, and it is just a 
survival thing that you just keep quiet, just keep quite, 
cannot do anything.
    Chairwoman Woolsey. Well, here is a question I have for all 
of us. Claudia has actually put her career on hold, and she is 
taking care of other people's children so that they can have 
careers. This is described in the Shriver Report actually, and 
it is becoming a new reality for immigrant workers.
    How are we going to do something? We cannot let this be the 
status in the United States of America. Would anybody like to 
respond to that?
    Ms. O'Leary. I would be happy to respond, and I really 
recommend the chapter in this report called ``Invisible 
Women.'' It is written by Maria Echaveste, who works on these 
issues and is a strong voice, and I think one of the things 
that she says is that the very thing that Claudia is going 
through, which is this invisibility and misunderstanding about 
the issues that are happening, but more than that, it is also 
often very unfair and often unlawful treatment of workers. You 
are lucky if you get a good employer in this situation, but the 
unlucky among us are forced to work uncompensated overtime, not 
to have sick days, and not to have the same type of flexibility 
that professional women often get by having nannies in their 
homes.
    So I think one of the things that is so critical, and I 
know you do this in your Better Balancing Act, is to be 
comprehensive for all women and to make sure that we are really 
looking at the solutions.
    You know, the other problem that women face not so much in 
the home, but retail workers who are working at 24-7 economies 
so that when professionals get off work they can go to work. So 
there are so many different issues of how do you make sure 
there is child care at 11 o'clock at night when somebody is at 
work.
    So I know you know these issues all too well, Chairwoman, 
but I think there is lots we can do together.
    Chairwoman Woolsey. Actually, after I told my lies and got 
employed, remember this is 45 years ago. I mean, you know, you 
would think it would be so much better now. I wanted the 
childcare professional to come to my house because at one, 
three and five year old children, you know, and I wanted them 
to bring their little kid to my house and, you know, all be a 
happy family.
    It really did not work out. We had 13 different childcare 
providers in one year, 13, and you know, that was hard on me, 
big deal. It was so hard on my children, and my oldest child 
was five years old. He was in kindergarten, and I would tell 
the person that brought her child to my home, you know, go over 
everything, and if you have any questions ask Joe. [Laugher.]
    Joe was five years old. He did know the answers, but 
imagine the burden I put on that child. I mean, I am guilty 
about that. I could cry about it, obviously.
    So what are we doing? I mean, part of the Balancing Act is 
to provide more and high quality childcare, paying childcare 
workers. [Applause.]
    Paying childcare workers, I mean, valuing them in their pay 
and benefits. How close are we, you know, getting there from 
your report?
    Ms. Bornstein. I would just add just another thought of how 
to do this is that, you know, part of the problem with the way 
our workplace structures are is they are very all or nothing, 
especially in the professional context. So I think policies 
that allow people to work reduced or flexible or alternative 
schedules would sort of also reduce the need to be constantly 
outsourcing your child's care. I mean, if people were able to 
work more reduced hour schedules without penalties, they might 
actually opt to do that more, which would reduce the overall 
childcare burden.
    Ann mentioned the Right to Request bill, but there is also 
part of your Balancing Act that focuses on part-time equity, 
and I think that is sort of making policies apply equitably to 
part-time workers or reduced hours workers and also the part 
that encourages businesses to engage in telework.
    And so I think part of the problem with why childcare is 
continually being sort of outsourced and downsourced and 
becoming a burden on lower income workers is that people are 
working longer hours than they would ultimately like to because 
our workplaces just are not designed to think about how we 
actually live our lives these days.
    Chairwoman Woolsey. Right, and we also have the economy 
that has crashed in on everybody, and people that have jobs are 
desperate to keep them, and what I am finding, and this is 
working mothers particularly in this, that, say, the middle 
management person, they are doing their boss' job, that the 
boss got displaced, and they are doing their assistant's job 
and their job.
    Those are long hours. That is a lot of stress.
    Yes.
    Ms. Ferris. I would just like to comment on the childcare, 
and as I had testified, IBM has really invested substantially, 
over $200 million in dependent care initiatives for our 
employees, and it has not only been childcare centers, although 
we have 139 childcare centers in the United States that we 
purchase priority slots for our employees. We also know that 
not all employees want to go to a childcare center. Some people 
want to have in-home care, and we invest in helping the quality 
of that care by providing training for providers, grants for 
after school programs so that our employees do have qualified 
places for their children to go.
    And we have done it in the communities where employees 
live. So it is not a company headquarters or at our buildings 
necessarily. It is really in the community, which has been so 
helpful because now that we have such flexibility, not everyone 
goes to an office, as you know, but they might want to use 
something closer within their community.
    And this is a place where businesses can help out, too. The 
American Business Collaboration was created in the '90s, and it 
brought together companies who pooled their resources to invest 
in childcare initiatives, and the model of it was that together 
we could do what none of us could do alone, and so invested in 
many, many programs for employees.
    Chairwoman Woolsey. So let's talk about the benefit to the 
employer. Because I do not have any other members up here I 
keep talking about me, but I am going to. [Laughter.]
    Because it made such a difference in me knowing why I 
needed to be part of the House of Representatives. I mean, you 
know, lucky me. I survived well, but there are so many women 
that need so much help, and families.
    When I was having those 13 childcare providers, and we went 
from that and then there was some time in between with better 
care; then I remarried and had four kids then because my 
husband had a child. We had four, six, seven and eight. They 
all became teenagers at once, by the way. [Laughter.]
    That is why I became a very humble member of Congress. I 
raised those teenagers.
    We brought my mother from Washington State to Petaluma, and 
she came to our house after school. It was that very same month 
that I was promoted to be an executive at the company I was 
working for because half my brain was always home. There would 
be kids at home. They were in different situations, but they 
did not want to be there. They wanted to be home.
    As soon as my mother was there and I knew they were safe 
and taken care of, I just boss them. So what does that mean to 
employers when their workers feel safe about their children?
    Ms. Ferris. Well, you are absolutely right. One of the 
reasons that we do this is so that our employees can be as 
productive as they can be while they are working. To the extent 
that we have someone who is worried about their child or 
worried about a parent who is ill, they are not focused on the 
job, and that is what we need them to be.
    And to the other point, you know, we want to make sure that 
women come to work at IBM. They are such a critical part of the 
talent pool, but we want them to stay at IBM, and we want them 
to grow with IBM. And so we have increased the number of women 
executives substantially. Sixty-five percent of our women 
executives are working mothers today.
    Ms. O'Leary. I will just add to that. You know, let's just 
all give a round of applause to IBM for what they are doing. 
[Applause.]
    You know, I think it is exciting to hear these best 
examples because not only is it exciting for the employees, but 
you see it is really good for the bottom line. In the Shriver 
Report we cite a number of reports that show that when you get 
women involved and you let them rise to the top, that, in fact, 
their profits increase.
    We have a study from Pepperdine University that says that 
the 25 best corporations for women in the Fortune 500 list, 34 
percent have higher profits.
    We looked at a 2000 study from Catalyst that found that 
Fortune 500 companies with more female board members were more 
profitable than those with fewer. So we really do see the 
difference.
    The other thing that I think is exciting in terms of small 
business community is one of the things that is happening is 
that in small businesses women who do end up leaving 
corporations are starting small businesses. We are seeing some 
increased flexibility in small businesses as a result of 
women's leadership.
    So these do happen, and they are profitable, and I think 
that is the point that often gets lost in this.
    Ms. Bornstein. Yes, just if I could add to that, you know, 
IBM is clearly an example of an employer that gets it and gets 
the benefit, the financial benefits of making a more family 
friendly workplace. I think that one of the problems is a lack 
of understanding of the business case. Too many employers sort 
of see the dollars and cents when it comes to implementing 
these policies, but they don't think about what they just label 
as the cost of doing business that actually that investment 
could reduce, like turnover, attrition, lost productivity, you 
know, training, recruitment. Those are sort of, oh, those are 
just the cost of doing business. I am just running my business.
    But if you propose implementing some sort of policy about 
flexibility or childcare, that is when they see the dollars and 
cents, and so I think really tying those two things together is 
something that would be more useful and hopefully we could, you 
know, make a little more clarity for other businesses.
    You know, those costs of business can go away if you make a 
little bit of an investment.
    Chairwoman Woolsey. And won't it take businesses talking to 
other businesses, employer to employer, in order to get that 
message across?
    Ms. O'Leary. That is exactly right. I mean, we need people 
like IBM, and you already do this, and really, you know, 
shining the spotlight, but then really influencing the 
corporate community, and I think that makes a tremendous 
difference.
    We were really lucky as part of the Shriver Report to have 
Valerie Jarrett, one of the President's--I love the babble of 
children, so no worries--Valerie Jarrett is one of the 
President's top advisors who heads up the Council on Women and 
Girls and has talked about the fact that the administration 
wants to do more to highlight these businesses not just for the 
sake of the applause for those who are doing a good job, but 
for the sake of saying to other businesses, ``This can work not 
just for your employees, but for you and for your profit 
line.''
    So I hope that they will do that, and that Congress will 
work with them to help that happen.
    Chairwoman Woolsey. Well, I have written that legislation.
    Ms. O'Leary. Oh, good. Thank you.
    Ms. Blades. And I am just going to chime in here because it 
is businesses talking to businesses, and it is also, you know, 
having the culture change so that it comes from every direction 
because we need the government to be supporting it with the 
kind of policies they present, the businesses seeing the win-
wins because when you look at these businesses that do well by 
their employees, they actually have a better bottom line, as in 
these businesses that have women in them.
    And you know, part of the MomsRising is kind of the 
grassroots level of that, which is small businesses and 
individuals in this, you know, kind of mutually respectful and 
raising all boats approach to it.
    So this is kind of an exciting area because I think you can 
find a lot of agreement if you get down to what we really are 
trying to accomplish.
    Ms. O'Leary. And can I just add one more thing in terms of 
practically what the federal government can do? I recently 
wrote a report this summer about federal contracting. I think a 
lot of people do not know that billions of dollars that get 
invested by the federal government in contracting. It affects 
about 25 percent of our workforce.
    So one of the things I have been saying is that the federal 
government should not just lead as an employer, but also lead 
as a responsible contractor and reward those like IBM, like 
others. Deloitte Touche is another example who are just doing a 
very good job. Let's make sure that they do not get points off 
in their bidding process because it costs them a little bit 
more on the front end to do this. Let's give them points for, 
you know, having paid sick days, having paid family leave.
    So I think that is a real role that everybody can play.
    Chairwoman Woolsey. That is a very, very good idea.
    Claudia, if we solved your immediate problem with adequate, 
reliable childcare, if your kids could go after school to a 
safe boys or girls club or on school site or something, what 
other problems and what other needs do you have that your 
employer needs to change, not this particular employer, but any 
employer, would need in order to make it really possible for 
you?
    Ms. Zamorano. Well, paid sick days. That is what women 
need. Flexible schedules for women that are single like me or 
men, because there are also men suffering.
    Chairwoman Woolsey. Yes.
    Ms. Zamorano. So it is a matter of understanding the 
necessities of a worker so that we can give the best of us and 
have a varied workplace, and do not bring our problems home or 
our problems to work.
    Chairwoman Woolsey. Absolutely.
    Ms. Zamorano. Health care; that is another.
    Chairwoman Woolsey. Now, large employers have employee 
assistance programs. You know, your family that you work for 
cannot be your employee assistance person.
    Ms. Zamorano. I have been very lucky with this family.
    Ms. O'Leary. And one of the things in your bill obviously 
is is this your childcare resource and referral so that if you 
do have a breakdown if you are going to care for someone else's 
children, there is somebody in the community who you can call. 
I mean, there are certainly community models of this. In Moran 
we have it in the East Bay where you can say, ``Listen. I have 
to go take care of this child and I need some help,'' or your 
employer is also flexible so that you could bring your children 
with you, and these are the types of things that would be a big 
help.
    Ms. Zamorano. It really worries. The way the economy is 
going right now, I mean, what good does it do for me to stay 
home really and just live out of the government? I do not think 
so. That is not me, and I know many women that do not like 
that. So I want to go to work. I need a job, you know, and I 
need to give my kids the best that I can. I do not want them to 
be losers. I cannot allow that to happen.
    Chairwoman Woolsey. Obviously, with your 15 out of what, 
how many children?
    Ms. Zamorano. Six hundred.
    Chairwoman Woolsey. Yes. What you are doing is working.
    Ms. Zamorano. Thank you.
    Chairwoman Woolsey. But it is hard work.
    Ms. Zamorano. It is very hard, yes.
    Chairwoman Woolsey. So that is what this is all about. It 
is really not about Claudia. It was never about me when I was 
at work. It is about these children and our future. They are 
our future, and if we go ahead business as usual and pretend 
like, okay, they are little; let's ignore them, and then by the 
time they get in the workforce, we are furious at them because 
they are not prepared and ready.
    And it is not just struggling kids or poor kids. I watch my 
grandchildren. We have three families with children, two 
professional people in each family. They work so hard to do 
right by their children, the dads as well. I mean, they really 
work hard, but they have more privileges because they have got 
higher paid jobs, but the time is what. No matter what you are 
earning, you do not have more.
    These kids have to know that we as a society care about 
them enough to invest in them, not wait until they are ready to 
go in the workforce. [Applause.]
    Those are my closing remarks. I would like each of you if 
you would like to say some closing remarks, and then we will 
close off the procedure.
    Ms. O'Leary. Well, thank you, Chairwoman Woolsey, again, 
for hosting this. I just want to follow up on what you just 
said about time.
    I have a dear cousin of mine who is older than me, and she 
was dying very sadly of M.S., and she said to me in kind of her 
parting words, and I had just had a small child. I have a small 
daughter who is now two and a half, and my daughter was a baby, 
and she said, ``My biggest advice to you is the thing that you 
can give your child is the gift of time.''
    Her husband was a writer, and he took time off to care for 
her. She had a beautiful daughter who is now in her 20s, and I 
think that is right. We need to give people the gift of time. 
In order to do that, we need to have these policies in place so 
that, you know, one of the things I think is frustrating to me 
about this report sometimes is that the media tends to focus 
on, well, what is happening in the family in terms of personal 
negotiations and struggles.
    This is not just about everyone's own personal private 
struggle. This is about how we support each other as a society. 
You have got that, and we need to make sure that everybody gets 
that.
    So thank you so much for this opportunity.
    Chairwoman Woolsey. Thank you, Ann.
    Claudia.
    Ms. Zamorano. Thank you so much for letting me share my 
story with you all. I really appreciate it and have my children 
and my family. My parents who have said, ``We could not have a 
better daughter than you,'' and I love my family so much. If I 
was without them, I do not know what I would do.
    Thank you.
    Chairwoman Woolsey. Thank you. Well, you need support 
beyond your parents. They are wonderful, but let's see if we 
can get you some and change society that way.
    Joan.
    Ms. Blades. Well, thank you for being support in 
Washington, D.C. to get these policies across because, I mean, 
it is really the long-term thinking that is something we have 
to start doing, and fundamentally, this is about long-term 
thinking and making it possible for parents to take care of 
their kids.
    And it is actually really good for everybody when we do it 
right. So we will do our best to support you on our end.
    Chairwoman Woolsey. Thank you. Thank you very much.
    Maria.
    Ms. Ferris. Thank you.
    It was certainly an honor for me to travel from North 
Carolina to be here today, a beautiful, beautiful state.
    Chairwoman Woolsey. No, it is a beautiful district. 
[Laughter.]
    Ms. Ferris. Let me clarify. Sorry.
    One thing, you know, that occurs to me as I listen to the 
discussion. All of us no matter who you are have a personal 
life, and that could be men, women, no matter who you are, and 
we need to make sure that all of us get the opportunity to 
balance and to manage our work life and our personal life.
    And one of the things that we found at IBM through the 
work-life surveys that we have been doing since 1986 is the 
biggest help in helping employees manage that personal and work 
life is flexibility, and as we see flexibility increase over 
the past 20-some years, we can see difficulty managing work and 
personal life actually decrease.
    So to the extent that we can expand flexibility and provide 
it for as many people as we can, I think that will be a home 
run for us.
    Thank you.
    Chairwoman Woolsey. Thank you very much.
    Stephanie.
    Ms. Bornstein. Thank you also for inviting me to testify. 
It has really been an honor and very interesting to be sitting 
here and listening to everyone's comments.
    I am going to put an open parentheses that Ann started with 
just underscoring her point that we have really as a society 
tended to think of these as individual people's problems. You 
deal with your work-family problems outside of work, and you 
come to work, and you do your job. You know, we have this 
individualistic idea in this country.
    And I think the Shriver Report is really showing this is a 
tipping point. We cannot continue to think about the issue of 
work and family this way because it is not working for workers, 
50 percent of whom now are women, and it is not working for 
businesses either. They are experiencing costs, and I think 
that, you know, I am thrilled that the report came out, and I 
think it is very useful. We can use it as a tool to show, you 
know, this is not a problem we can leave to everyone's own 
individual solutions anymore. We need more.
    Chairwoman Woolsey. Thank you very much.
    And the report has refocused a lot of people in this 
country on an issue that we have been working on for 3,000 
years, right? But let's take it and make something of it and go 
forward.
    With brains like yours and investment in caring like all of 
you, we are on our way.
    So as previously ordered, members will have 14 days to 
submit additional materials for the record, and with that, the 
hearing is over.
    [Additional submission of Ms. Woolsey follows:]

 Prepared Statement of Emily M. Murase, Ph.D., Executive Director; and 
  Ann Lehman, Senior Policy Director, San Francisco Department on the 
                            Status of Women

    The Shriver Report highlights how women in the workforce (now 50%) 
changes everything. We, the San Francisco Department on the Status of 
Women, could not agree more! To help companies implement the policy 
concerns raised by this critical report we have spearheading a new 
program for private sector companies, the San Francisco Gender Equality 
Principles Initiative (GEP Initiative). The GEP Initiative is a 
partnership between the San Francisco Department on the Status of 
Women, the Calvert Group, Ltd., one of the largest families of socially 
responsible mutual funds in the United States, and Verite, an 
international labor and human rights monitoring organization. The GEP 
creates a framework for private sector entities to measure gains in 
gender equity.
Background
    In 1998, San Francisco became the first city in the world to enact 
a local ordinance reflecting the principles of the U.N. Convention on 
the Elimination of All Forms of Discrimination Against Women (CEDAW). 
The CEDAW Ordinance states that ``there is a need to work toward 
implementing the principles of CEDAW in the private sector.''\1\ It 
also calls for gender analysis of private entities to the extent 
permitted by the law.\2\ The first 10 years of CEDAW implementation in 
San Francisco focused on assessing and improving gender equality within 
government entities. The Department determined that using CEDAW in the 
private sector was critical to ensure the promotion of gender equality. 
Also in 2004, Calvert partnered with the U.N. Development Fund for 
Women (UNIFEM) to develop the Calvert Women's Principles (CWP), the 
first corporate code of conduct focused exclusively on the advancement 
of women worldwide. The partnership grew out of our mutual concern for 
women in the workforce.
---------------------------------------------------------------------------
    \1\ City and County of San Francisco, CEDAW Ordinance 325-00, 
Section 12K.1(c)
    \2\ Ibid., Section 12 K.4
---------------------------------------------------------------------------
How does it work?
    Through detailed benchmarks, indicators and resources the GEP 
Initiative offers clear, practical standards to which private sector 
entities can aspire, and a measure against which they can assess their 
progress on 7 fundamental gender equality issues: 1) employment and 
compensation; 2) work-life balance and career development; 3) health 
and safety; 3) management and governance; 4) business, 5) supply chain 
and marketing practices; 6) civic and community engagement; and 7) 
transparency and accountability.
    The GEP Initiative provides a framework through which businesses 
can achieve greater gender equality and build more productive 
workplaces, where women and men have equal opportunities to realize 
their potential--from the factory floor to the board room, in both 
developed and developing countries. In 2008-2009, the initial year of 
the project, 18 of the San Francisco Bay Area's largest companies and 
nonprofits joined the GEP Initiative, including Deloitte, the Gap, IBM, 
McKesson, The San Francisco Foundation, Charles Schwab, Symantec and 
others.
    The GEP hosts quarterly roundtables, each one focused on 1 of the 7 
principles, to foster peer-to-peer discussion between companies on best 
practices and challenges related to promoting gender equality. The 
companies work with the GEP partners to create self assessment tools 
and compile resources to help them implement innovative polices and 
practices. Here are ways other businesses can get started on improving 
gender equality in their workplaces:
    <bullet> Conduct a self-assessment. Use the GEP self-assessment 
tool to evaluate current workplace policies and practices in relation 
to the principles.
    <bullet> Develop an action plan. Leverage the self-assessment 
findings to prioritize next steps and develop an action plan that 
includes measurable short- and long-term goals for improving gender 
equality.
    <bullet> Engage with stakeholders and peers. The GEP Initiative 
offers quarterly roundtables for participating companies in the Bay 
Area. These roundtables are guided forums for companies to learn about 
best practices in corporate promotion of gender equality, gain advice 
from peers on how to advance gender equality, and develop practical 
policies and performance improvement tools.
    These tools will be available online for businesses, NGOs, and 
individuals worldwide to take the GEP self-assessment or access the 
wealth of resources that is being collected. The Initiative is 
developing a user friendly website which is due to premier in March 
2010.\3\ Currently we have 3 sets of Indicators and Resources 
completed:
---------------------------------------------------------------------------
    \3\ Under construction at <http://www.genderprinciple.org>.
---------------------------------------------------------------------------
    Principle 2 Work-Life Balance and Career Development
    Principle 3 Health, Safety and Freedom from Violence
    Principle 4 Management and Governance\4\
---------------------------------------------------------------------------
    \4\ Each set of indicators and resources are available at see 
http://www.sfgov.org/site/dosw--page.asp?id=84665. The GEP just held 
its 4th roundtable on November 6, 2009 focused on pay equity (Principle 
1 Employment And Compensation). These will be finalized in the near 
future.
---------------------------------------------------------------------------
    The GEP and the CWP also form the basis for a set of global women's 
principles that are being developed by the U.N. Global Compact and 
helped shape the Gender in Sustainability Reporting Guide of the 
International Finance Corporation (IFC), a member of the World Bank 
Group, and the Global Reporting Initiative (GRI).\5\
---------------------------------------------------------------------------
    \5\ The GEP has been translated into six languages English, Arabic, 
Chinese, French, Russian, and Spanish. More information on this 
initiative can be found at www.unglobalcompact.org/issues/human--
rights/5March2009--ToolsAndResources.htm.
---------------------------------------------------------------------------
    For more information please visit www.sfgov.org/dosw or contact Ann 
Lehman (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="61000f0f4f0d04090c000f211207060e174f0e1306">[email&#160;protected]</a>, 415-252-2576).
                                 ______
                                 
    [Whereupon, 11:54 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
